<html>
<title> - INNOVATION AT TSA: EXAMINING THREAT MITIGATION THROUGH TECHNOLOGY ACQUISTIONS REFORM</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


   INNOVATION AT TSA: EXAMINING THREAT MITIGATION THROUGH TECHNOLOGY 
                           ACQUISTIONS REFORM

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                           TRANSPORTATION AND
                          PROTECTIVE SECURITY

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 18, 2018

                               __________

                           Serial No. 115-46

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                            
       Available via the World Wide Web: http://www.govinfo.gov

                               __________
                               
                            
                             
                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-192 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="492e3926092a3c3a3d212c2539672a262467">[email&#160;protected]</a>                              
                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Sheila Jackson Lee, Texas
Mike Rogers, Alabama                 James R. Langevin, Rhode Island
Lou Barletta, Pennsylvania           Cedric L. Richmond, Louisiana
Scott Perry, Pennsylvania            William R. Keating, Massachusetts
John Katko, New York                 Donald M. Payne, Jr., New Jersey
Will Hurd, Texas                     Filemon Vela, Texas
Martha McSally, Arizona              Bonnie Watson Coleman, New Jersey
John Ratcliffe, Texas                Kathleen M. Rice, New York
Daniel M. Donovan, Jr., New York     J. Luis Correa, California
Mike Gallagher, Wisconsin            Val Butler Demings, Florida
Clay Higgins, Louisiana              Nanette Diaz Barragan, California
John H. Rutherford, Florida
Thomas A. Garrett, Jr., Virginia
Brian K. Fitzpatrick, Pennsylvania
Ron Estes, Kansas
Don Bacon, Nebraska
                   Brendan P. Shields, Staff Director
               Steven S. Giaier,  Deputy General Counsel
                    Michael S. Twinchek, Chief Clerk
                  Hope Goins, Minority Staff Director
                                 
                               ------                                

         SUBCOMMITTEE ON TRANSPORTATION AND PROTECTIVE SECURITY

                     John Katko, New York, Chairman
Mike Rogers, Alabama                 Bonnie Watson Coleman, New Jersey
Clay Higgins, Louisiana              William R. Keating, Massachusetts
Brian K. Fitzpatrick, Pennsylvania   Donald M. Payne, Jr., New Jersey
Ron Estes, Kansas                    Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
             Krista P. Harvey, Subcommittee Staff Director
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable John Katko, a Representative in Congress From the 
  State of New York, and Chairman, Subcommittee on Transportation 
  and Protective Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Bonnie Watson Coleman, a Representative in Congress 
  From the State of New Jersey, and Ranking Member, Subcommittee 
  on Transportation and Protective Security:
  Oral Statement.................................................     3
  Prepared Statement.............................................     5
The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  Prepared Statement.............................................    12
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     5

                                Witness

Mr. David P. Pekoske, Administrator, Transportation Security 
  Administration, U.S. Department of Homeland Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8

                                Appendix

Questions From Chairman John Katko for David P. Pekoske..........    31
Question From Chairman Michael T. McCaul for David P. Pekoske....    40
Questions From Ranking Member Bennie G. Thompson for David P. 
  Pekoske........................................................    40

 
   INNOVATION AT TSA: EXAMINING THREAT MITIGATION THROUGH TECHNOLOGY 
                           ACQUISTIONS REFORM

                              ----------                              


                       Thursday, January 18, 2018

             U.S. House of Representatives,
                Subcommittee on Transportation and 
                               Protective Security,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:06 p.m., in 
room HVC-210, Capitol Visitor Center, Hon. John Katko (Chairman 
of the subcommittee) presiding.
    Present: Representatives Katko, Rogers, Higgins, 
Fitzpatrick, Estes, Watson Coleman, and Payne.
    Also present: Representative McCaul.
    Mr. Katko. The Committee on Homeland Security, Subcommittee 
on Transportation and Protective Security will come to order.
    The subcommittee is meeting today to discuss how TSA is 
working to mitigate threats to transportation security through 
reforming the agency's broken acquisitions system. In 
particular, the subcommittee will examine TSA's statutorily 
required 5-year investment plan that was recently submitted to 
Congress, as well as the agency's Innovation Task Force and 
overall procurement practices.
    I now recognize myself for an opening statement. During my 
tenure as Chairman of the subcommittee, I have watched the 
threat environment grow ever more startling. I, along with my 
colleagues on the committee on both sides of the aisle, have 
been continuously briefed on changing security threats and 
TSA's threat mitigation efforts.
    Unfortunately, TSA continues to be plagued by a reactive 
rather than proactive posture when it comes to technology 
development and deployment. While terrorists continue to 
develop better ways to try and defeat our security screening, 
TSA struggles to quickly and effectively deploy cutting-edge 
technology to the front lines.
    This has been a constant oversight issue for this 
subcommittee due to a lack of serious change within the agency. 
My predecessor on this subcommittee, Richard Hudson, passed 
legislation in the 113th Congress requiring TSA to submit the 
5-year investment plan, a legacy we have sought to build upon 
by introducing legislation to make the plan annual rather than 
biannual.
    Recently, while reviewing the history of this 
subcommittee's oversight on this topic, I came across a 
question stemming from a hearing in June 2012 asking why 
credential authentication technology had been delayed for a 
third time.
    As we sit here today, in 2018, this technology still has 
yet to be deployed at airports. That is truly amazing. 
Bureaucratic bottlenecks and understaffing at the TSA Systems 
Integration Facility, or TSIF, have led to years of delays for 
technologies that other countries have been using in their 
airports for quite some time.
    Mrs. Watson Coleman, myself and others saw that for 
ourselves with our own eyes in a recent Congressional 
Delegation we took to the Middle East and Europe. On a recent 
bipartisan Congressional Delegation we saw that, as I mentioned 
to you. Excuse me, got ahead of myself.
    Specifically at Schiphol airport in Amsterdam, screening 
checkpoints utilize advanced Computer Tomography Systems or CT, 
which offer screeners better picture quality and more advanced 
threat detection capabilities.
    While Schiphol was able to deploy this American technology 
in a matter of months, TSA continues to be bogged down in a 
lengthy process for testing systems and developing algorithms. 
In TSA's own 5-year investment plan, which was submitted to 
Congress nearly 6 months after the statutory deadline, let me 
say that again, 6 months after the statutorily-imposed 
deadline, we finally got this watered-down plan.
    The agency states it only plans to procure two CT systems a 
year for the next 3 fiscal years. That is a total of 6. There 
are 12 at Schiphol airport alone and there are 450 airports in 
the United States.
    However, the same plan estimates it would need well over 
2,000 CT machines and $224 million for full deployment. While 
TSA has indicated to the committee that it intends to procure 
and deploy more of these machines, all estimates still fall 
woefully short of what is needed.
    With all the airports in the United States, goals and 
requests for CT machines should be measured in the hundreds or 
thousands rather than single digits. The good news is this, Mr. 
Pekoske: You, in your new role as administrator of TSA, have 
the opportunity to use the $7.4 billion budget Congress has 
provided you to fix this broken system and give the American 
people the type of security they demand and deserve for their 
tax dollars.
    Additionally, this subcommittee stands ready to work in a 
bipartisan manner to help you accomplish this monumental task 
through oversight and legislation. In order to be successful, 
however, we need TSA to come to the table with honest and 
timely answers and real solutions with a sense of genuine 
partnership.
    I look forward to hearing your vision for reforming the TSA 
acquisitions process and how Congress can help.
    [The statement of Chairman Katko follows:]
                    Statement of Chairman John Katko
                            January 18, 2018
    The subcommittee is meeting today to discuss how TSA is working to 
mitigate threats to transportation security through reforming the 
agency's broken acquisitions system.
    In particular, the subcommittee will examine TSA's statutorily-
required 5-year investment plan which was recently submitted to 
Congress, as well as the agency's Innovation Task Force and overall 
procurement practices.
    During my tenure as Chairman of this subcommittee, I have watched 
the threat environment grow ever more startling. I, along with my 
colleagues on the committee, have been continuously briefed on changing 
security threats and TSA's threat mitigation efforts.
    Unfortunately, TSA continues to be plagued by a reactive--rather 
than proactive--posture when it comes to technology development and 
deployment.
    While terrorists continue to develop better ways to try and defeat 
our security screening, TSA struggles to quickly and effectively deploy 
cutting-edge technology to the front lines. This has been a constant 
oversight issue for this subcommittee, due to a lack of serious change 
within the agency.
    My predecessor on this subcommittee, Congressman Hudson, passed the 
legislation in the 113th Congress requiring TSA to submit the 5-year 
investment plan--a legacy we have sought to build upon by introducing 
legislation to make the plan annual rather than biannual.
    Recently, while reviewing the history of this subcommittee's 
oversight on this topic, I came across a question stemming from a 
hearing in June 2012 asking why Credential Authentication Technology 
had been delayed for a third time. As we sit here today, this 
technology still has yet to be deployed at airports.
    Bureaucratic bottlenecks and understaffing at the Transportation 
Systems Integration Facility, or TSIF, have led to years of delays for 
technologies that other countries have been using in their airports for 
quite some time.
    On a recent bipartisan Congressional Delegation to airports in the 
Middle East and Europe, my colleagues and I were amazed at the level of 
advanced security equipment utilized by several nations to screen both 
aviation passengers and employees.
    Specifically at Schiphol airport in Amsterdam, screening 
checkpoints utilize advanced Computed Tomography Systems--or CT--which 
offer screeners better picture quality and more advanced threat 
detection capabilities.
    While Schiphol was able to deploy these technologies in a matter of 
months, TSA continues to be bogged down in a lengthy process for 
testing systems and developing algorithms.
    In TSA's own 5-year investment plan, which was submitted to 
Congress nearly 6 months after the statutory deadline, the agency 
states it only plans to procure two CT systems a year for the next 3 
fiscal years. However, the same plan estimates it would need well over 
2,000 CT machines and $224 million for full deployment.
    While TSA has indicated to the committee it intends to procure and 
deploy more CT machines, all estimates still fall woefully short of 
what is needed. With 435 airports in the United States, goals and 
requests for CT machines should be measured in the hundreds or 
thousands rather than single digits.
    The good news is this, Mr. Pekoske: You, in your new role as 
administrator of TSA, have the opportunity to use the $7.4 billion 
budget Congress has provided you to fix this broken system and give the 
American people the type of security they demand and deserve for their 
tax dollars.
    Additionally, this subcommittee stands ready to work in a 
bipartisan manner to help you accomplish this monumental task through 
oversight and legislation. In order to be successful, however, we need 
TSA to come to the table with honest answers, real solutions, and with 
a sense of genuine partnership.
    I look forward to hearing your vision for reforming the TSA 
acquisitions process and how Congress can help.

    Mr. Katko. I am pleased to recognize the Ranking Member of 
the subcommittee, the gentlelady from New Jersey, Mrs. Watson 
Coleman for her opening statement.
    Mrs. Watson Coleman. Thank you, Mr. Chairman and thank you 
for convening this hearing.
    Mr. Administrator, thank you for appearing before our 
subcommittee. Today it seems like I haven't seen you in a very 
long time. Funny, we saw each other earlier today. The 
Transportation Security Administration is essential to our 
Nation's security.
    Americans rely on the work of TSA employees to keep us safe 
from a long and growing list of terrorist threats. Over the 
last year, we have seen the threat landscape changed and 
watched TSA work to adapt.
    In March, we watched TSA grapple with the question of 
whether to ban electronic devices larger than the smart phone 
from all U.S.-bound passenger planes in response to the threat 
landscape.
    Since last summer, TSA has had to reevaluate the level of 
transportation security on a number of occasions. In August, a 
serious ISIS-connected cargo-based explosive plot came to light 
which was to be carried out on an international flight.
    Then in December, a would-be terrorist attempted an attack 
on the New York City subway system. Even though the terrorist 
threat picture evolves at an uncomfortably quick pace, the 
number of travelers who rely on TSA security operations has 
increased.
    During the holiday season, TSA screened a record of 42 
million passengers and 31 million checked bags at airports 
across the country. TSA's plate is close to full. Still, we 
need the agency to do more.
    We need TSA to continue to be a leader in aviation security 
and invest in leading technologies that would keep our 
transportation system safe. For me, today is an opportunity to 
look beyond the 5-year technology investment plan that appears 
to be the impetus for the hearing and to focus on the bigger 
picture. When is TSA going to fully realize its mission of 
effectively securing all modes of transportation against 
terrorism?
    As such today, I want to hear from you, Mr. Administrator, 
about your plans to address the growing threat to soft targets 
in surface transportation, on-going work force challenges, air 
cargo security, and behavior detection screening.
    Additionally, we need to discuss the passenger security fee 
diversion. It is unconscionable that at a time when the treats 
to aviation and surface transportation systems are so 
sophisticated and diverse, that TSA is forced on an annual 
basis to hand over $1.28 billion in aviation security fees it 
collects to the Treasury for the deficit reduction.
    The truth of the matter is that we cannot continue to have 
conversations on how TSA should do better or move faster to 
deploy innovative security screening equipment without having 
an honest conversation about TSA's resource needs.
    As Members of this subcommittee, we are best positioned to 
know what TSA needs, and without question TSA needs us to enact 
H.R. 2514, Funding for Aviation Screeners and Threat 
Elimination Restoration Act, so that it can receive the funds 
necessary to procure security screening technology.
    We know the President's budget will be released soon. Mr. 
Administrator, I would ask that you would work really hard to 
ensure that this time around, in contrast to last year's 
submission, what we receive actually reflects your operational 
needs.
    Given everything that we are going to discuss today, 
following this hearing with a tone-deaf budget proposal would 
be unacceptable. Thank you, again, Mr. Administrator, for your 
time today. I hope today's hearing will be productive and look 
forward to hearing your answers to the myriad of transportation 
security issues facing our Nation.
    With that, I yield back the balance of my time.
    [The statement of Ranking Member Watson Coleman follows:]
           Statement of Ranking Member Bonnie Watson Coleman
                            January 18, 2018
    The Transportation Security Administration is essential to our 
Nation's security. Americans rely on the work of TSA employees to keep 
us safe from a long and growing list of terrorist threats. Over the 
last year, we have seen the threat landscape change and watched TSA 
work to adapt.
    In March, we watched TSA grapple with the question of whether to 
ban electronic devices larger than a smart phone from all U.S.-bound 
passenger planes in response to the threat landscape. And since last 
summer, TSA has had to reevaluate the level of transportation security 
on a number of occasions. In August, a serious ISIS-connected cargo-
based explosives plot came to light, which was to be carried out on an 
international flight. Then in December, a would-be terrorist attempted 
an attack on the New York City subway system.
    Even though the terrorist threat picture evolves at an 
uncomfortably quick pace, the number of travelers who rely on TSA 
security operations has increased. During the holiday season, TSA 
screened a record 42 million passengers and 31 million checked bags at 
airports across the country.
    TSA's plate is close to full. Still, we need the agency to do more. 
We need TSA to continue to be a leader in aviation security and invest 
in leading technologies that will keep our transportations systems 
safe.
    For me, today's is an opportunity to look beyond the 5-year 
technology investment plan that appears to be the impetus for the 
hearing and to focus on the bigger picture--when is TSA going to fully 
realize its mission of effectively securing all modes of transportation 
against terrorism?
    As such, today, I want to hear from Administrator Pekoske about his 
plans to address the growing threat to soft targets in surface 
transportation, on-going workforce challenges, air cargo security, and 
behavior detection screening.
    Additionally, we need to discuss the passenger security fee 
diversion. It is unconscionable that at a time when the threats to 
aviation and surface transportation systems are so sophisticated and 
diverse, TSA is forced, on an annual basis, to hand over $1.28 billion 
in aviation security fees it collects to the U.S. Treasury for deficit 
reduction.
    The truth of the matter is that we cannot continue to have 
conversations on how TSA should do better or move faster to deploy 
innovative security screening equipment without having an honest 
conversation about TSA's resource needs.
    As Members of this subcommittee, we are best positioned to know 
what TSA needs and, without question, TSA needs us to enact H.R. 2514, 
``Funding for Aviation Screeners and Threat Elimination Restoration 
(FASTER) Act'' so that it can receive the funds necessary to procure 
security screening technology.
    We know the President's budget will be released soon. Mr. 
Administrator, I would ask that you work really hard to ensure that 
this time around, in contrast to last year's submission, what we 
receive actually reflects your operational needs. Given everything that 
we are going to discuss today, following this hearing with a tone-deaf 
budget proposal would be unacceptable.

    Mr. Katko. Thank you, Mrs. Watson Coleman. Other Members 
are reminded that statements may be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                            January 18, 2018
    A little more than 2 months ago, Administrator Pekoske testified 
before the full committee that ``the threat to international aviation 
is high and multiple terrorist groups remain intent on attacking our 
surface transportation systems.''
    Members of the committee on both sides of the aisle agree that 
countering such threats demands enhancements to current security 
systems, including the deployment of innovative technologies such as 
computed tomography, or ``CT'' machines. Unfortunately, deploying 
advanced technologies to the Nation's TSA checkpoints is easier said 
than done.
    While TSA has taken some positive steps such as establishing the 
Innovation Task Force, piloting CT machines, and publishing a refresh 
of its Strategic Five-Year Technology Plan, TSA can and should do more 
to reduce the time line for deploying new technologies to the field.
    Congress must do its part as well. We can start by passing H.R. 
2514, the ``FASTER Act''--a bill every Democrat on this committee 
supports--to return $1.28 billion in fees collected by TSA from the 
flying public for security that is currently being diverted away from 
TSA.
    It defies logic to call out TSA for failing to invest in new 
technologies while refusing to support the FASTER Act, which could 
provide TSA with the funding needed to realize the promise of 
integrating new technology in our aviation security system.
    Further, I am not sure it is fair to demand that TSA set out in 
great detail its plans for technology investments for the next 5 years 
at a time when the agency is funded on a stop-gap basis.
    Nevertheless, enhancing our transportation security efforts remains 
imperative. In addition to securing aviation systems, TSA must work 
with transit agencies and stakeholders across the country to secure 
subways, railroads, buses, and other surface transportation systems. I 
look forward to hearing about the TSA's efforts to develop and deploy 
technologies to secure surface transportation systems used daily by 
millions of Americans.
    Finally, I want to emphasize that technology alone will not provide 
security. Such solutions must be staffed and operated by well-trained, 
capable officers. We must do more to support TSA officers and work to 
improve their morale--starting by providing them with workplace 
protections in place for other Federal workers. Democrats remain 
committed to doing just that.
    Administrator Pekoske, you have a difficult job and I thank you 
again for joining us today.

    Mr. Katko. The Chairman of the full committee, Mr. McCaul, 
is going to make an opening statement. But he is on his way 
over, so in the interest of keeping in time here, we will go 
with Mr. Pekoske first and then come back to Mr. McCaul.
    Mr. Pekoske, welcome. You are the seventh administrator of 
the TSA, here to testify before us today in this critical 
topic. I believe you are the sixth either acting or actual 
administrator that I have seen at TSA in 3 years, which is 
unacceptable and that is why we had a bill passed that is 
sitting in the Senate, hopefully to give you a 5-year term to 
have some stability with TSA.
    In your role as administrator, Mr. Pekoske is responsible 
for securing the Nation's civil aviation system and surface 
transportation modes. He leads a work force for approximately 
60,000 employees who work to protect the Nation's 
transportation systems while ensuring freedom of movement for 
people and commerce.
    Prior to joining TSA, Mr. Pekoske served as the 26th vice 
commandant of the U.S. Coast Guard and we thank you for your 
service.
    Let me remind the witness that their entire written 
statement will appear in the record. The Chair now recognizes 
Mr. Pekoske for his opening statement.

 STATEMENT OF DAVID P. PEKOSKE, ADMINISTRATOR, TRANSPORTATION 
 SECURITY ADMINISTRATION, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Pekoske. Thank you, Mr. Chairman. Chairman Katko, 
Ranking Member Watson Coleman, and distinguished Members of the 
subcommittee. Thank you for the opportunity to appear before 
you this afternoon.
    Innovation is a key priority of mine and I am looking 
forward to obtaining your perspective as we work together to 
mitigate threats to transportation security.
    First, I want to acknowledge the outstanding men and women 
of TSA. It is my privilege to serve as administrator to the 
over 60,000 dedicated professionals that provide security for 
millions of Americans who use our transportation systems each 
and every day.
    I am proud to highlight that we have made measurable 
improvements to our aviation security effectiveness over the 
past few months through training and procedural changes. This 
was accomplished as passenger volumes continued to increase. I 
am pleased to report passenger wait times remain on average 
well within TSA standards.
    Transportation security is an all-hands effort. Our 
aviation security checkpoint personnel are clearly the most 
visible part of TSA. But there are thousands of other TSA 
employees working behind the scenes or in the air or with the 
owners and operators of our Nation's surface transportation 
systems. They are also key elements of TSA's success.
    On behalf of this team, I thank you for your support, 
enabling TSA to accomplish a mission so critical for the 
safety, security, and economic well-being of the American 
people.
    Mr. Chairman, I have tremendous respect for the oversight 
role that this subcommittee performs with respect to TSA. I 
highly value your perspectives and opinions. You have made us 
stronger and America safer. I know that TSA needs to be much 
more responsive to requests for information required by statute 
or otherwise requested by any Member of this subcommittee.
    I have looked into our responsiveness over calendar year 
2017. Simply put, we need to do better, much better. I give you 
my personal pledge to address this issue head-on and provide 
timely and complete delivery of information you seek going 
forward.
    Since becoming administrator, I have spent the majority of 
my time intentionally at the front lines of TSA. I have engaged 
with TSA employees at all levels of the organization and I have 
met with many of our partners to include the airlines, 
airports, law enforcement, and public safety professionals at 
the State and local level, owners and operators of surface 
transportation systems and international partners as well as 
industry groups and union leaders.
    Everywhere I visited, I found a deep commitment to the 
mission. It has also become very clear to me that we need to 
focus on three major lines of effort. The first is leading 
transportation security by strengthening the effectiveness of 
our operations.
    Second, is to accelerate action by deploying technology 
faster and third, committing to our people because they are the 
most valuable resource in our key line of defense against the 
threat.
    As I testified before the full committee in early November, 
the area that will yield the greatest impact on mitigating 
threats to aviation is improvement to the technology employed 
at the checkpoint.
    To this end, I am developing a TSA strategy, 
administrator's intent, and a capital investment plan. These 
will guide TSA's implementation of future technology 
development as part of a larger systems approach.
    I will ask for time in your calendars to obtain the 
subcommittee's input on these important documents. We are 
moving very rapidly to deploy CT X-ray technology at the 
checkpoints. This is my top priority.
    During this current fiscal year, we will field almost 40 
units for developmental and operational testing, 28 of those at 
airports. We are planning a much larger deployment in fiscal 
year 2019. Details of this will be provided in the President's 
budget when it is released in a few weeks.
    We are employing a flexible approach to test, procure, 
deploy CT systems while concurrently working to improve 
automation and achieve substantially enhanced levels of threat 
detection.
    We are enhancing our canine program. We will be at our 
budget allocation level in September. To ensure we maintain 
this level and position the program for continued growth, we 
have increased the capacity of our canine training center to 
maintain a robust pipeline of trained canines.
    I fully support the Domestic Canine Capability Building Act 
recently passed by this committee and the full House. We are 
deploying Credential Authentication Technology or CAT to be 
used at the first position on our security checkpoints.
    It will provide improved passenger identification, real-
time verification of ticketing status, real-time verification 
of secure flight vetting status, that will reduce fraudulent ID 
vulnerabilities and provide real-time vetting information at 
the checkpoint. That is a significant enhancement.
    Currently, there are 33 CAT systems deployed for testing in 
TSA PreCheck lines at 10 airports. Both DHS and TSA are 
evaluating existing rapid acquisition processes across the 
Government to leverage known experience and best practices.
    This will be very valuable for future acquisition projects 
so that our technology stays ahead of the threats posed by our 
adversary. Our relatively new innovation task force provides 
industry with a better way to interface with TSA.
    Our partnerships with industry, both small and large 
businesses, are very important to successful deployment of 
technology. I have strived to engage personally with industry 
on a regular basis and fully engage the Aviation Security 
Advisory Committee for their advice and perspective as well.
    In closing, I am deeply committed to strengthening our 
security posture and will do everything in my power to put the 
proper technology tools in the hands of the dedicated men and 
women of TSA.
    Chairman Katko, Ranking Member Watson Coleman, and Members 
of the subcommittee, thank you for the opportunity to testify 
before you today. I look forward to answering your questions.
    Thank you, Sir.
    [The prepared statement of Mr. Pekoske follows:]
                 Prepared Statement of David P. Pekoske
                            January 18, 2018
    Good afternoon Chairman Katko, Ranking Member Watson Coleman, and 
distinguished Members of the subcommittee. I appreciate the opportunity 
to appear before you to discuss the Transportation Security 
Administration's (TSA) technology initiatives.
    First and foremost, I would like to recognize the Transportation 
Security Officers (TSOs) on their success in providing security to over 
44 million airline passengers during the December holiday travel 
period. They did so professionally and adapted to accommodate daily 
screening challenges. Over the past 6 months, we have seen 5 of the top 
15 total passenger volume days in TSA's history. On average, TSA 
screens 2.2 million passengers each day. During this past holiday 
season, the daily rate grew as high as 2.4 million. Keeping up with 
this challenge would not be possible without our outstanding workforce.
    Additionally, I would like to thank Chairman Katko and Ranking 
Member Watson Coleman for taking the time to visit TSA headquarters 
last month for a discussion on transportation security. I look forward 
to continuing to work with you and your staff to advance TSA's critical 
mission.
    Today's hearing is timely, as technology deployment will be 
critical to TSA's success in 2018 and beyond. Terrorists continue to 
target commercial aviation, including cargo, and we must strive each 
and every day to stay ahead of the myriad threats. In the 5 months 
since I have been on board at TSA, we have seen scores of threats 
against aviation. I am committed to ensuring TSA remains as successful 
as it has been in the 16 years since the agency's founding to protect 
our transportation systems, especially aviation. Since I have been TSA 
administrator, we have improved training, deployed enhanced screening 
procedures, and have aggressively pursued new technologies. We are 
continually increasing our ability to detect threat items throughout 
the aviation security system, and improving technology at the 
checkpoint will be the focus of my remarks today.
                           checkpoint system
    One of the most significant initiatives at the checkpoint is the 
introduction of Computed Tomography technology, or ``CT,'' as it is 
commonly referred. I know some of you have seen CT being tested 
overseas at Amsterdam's Schiphol Airport and domestically at Boston 
Logan International Airport and Phoenix Sky Harbor International 
Airport. CT is not new technology. The idea for CT was conceived in the 
1960's and first employed for medical applications in the early 1970's; 
however, it has evolved and is now used in other arenas, such as in 
aviation security. In fact, TSA has been using CT scanners to screen 
checked baggage since the agency's inception in 2001. Over the past few 
years, industry has been aggressively working to reduce the technology 
equipment's size and adjust its configuration to make it a viable 
option for deployment at most airport checkpoints. TSA continues to 
work closely and expeditiously with CT equipment manufacturers to 
improve detection algorithms, optimize throughput, and automate the 
detection of prohibited items so that CT technology can deliver the 
full host of capabilities needed to address checkpoint vulnerabilities 
into the future.
    Once fully developed for the aviation environment, checkpoint CT 
technology will deliver a significant advancement over today's two-
dimensional X-ray technology platforms. Checkpoint CT screening 
technology provides a three-dimensional view of the bag and enables the 
TSA officer to rotate the bag 360 degrees to show the contents at every 
angle. CT features allow officers to virtually remove unwanted clutter, 
and greatly enhances their ability to visually inspect the contents of 
carry-on bags for explosives and prohibited items. In these ways, CT 
offers substantially improved detection capability by more effectively 
detecting smaller and artfully concealed threats, thereby increasing 
our overall security effectiveness while enabling passengers to leave 
electronics in their carry-on bags. Ultimately, we hope to refine 
checkpoint CT technology to the point where, similar to the checked 
baggage process, we have automated the carry-on baggage screening 
process and reduced the need for officers to review all images.
    In order to further our efforts and capabilities, TSA is working 
closely with industry partners, the Department of Homeland Security 
(DHS) Science and Technology Directorate, and international 
counterparts. Together, we are exchanging information and best 
practices related to operational and laboratory testing, explosives 
characterization, CT platform enhancements, and image library 
development. TSA is working closely with the European Commission, 
European Civil Aviation Conference, and bilaterally with the United 
Kingdom, France, Germany, and the Netherlands to share test results 
with the goal of aligning detection requirements and testing 
methodologies. The Netherlands, Turkey, Japan, Singapore, and South 
Africa are currently testing CT technology at their checkpoints, which 
allows for robust information sharing and ultimately guides the 
successful deployment of this technology.
    We are also leveraging academia to develop innovative software 
algorithms to more accurately identify prohibited items. Through our 
own Innovation Task Force, TSA is providing CT vendors with end-user 
feedback and real-world operational data to further operational 
development, effectiveness, and efficiencies. In short, checkpoint CT 
development is a world-wide effort to achieve the best screening 
solution that is technologically possible today. Deployment of this 
technology, both here at home and abroad, is a critical component of 
raising the global aviation security baseline.
    My team has developed an aggressive plan to deploy checkpoint CT 
technology. We are currently pursuing a flexible approach to test, 
procure, and deploy CT systems, while concurrently developing CT system 
algorithms to significantly improve automated threat detection 
capabilities. This approach employs the concepts of modularity and 
iterative design to support deployment of specific capabilities as part 
of a larger solution, while progressively expanding functionality until 
the full CT capability is realized.
    Deployment of CT technology at checkpoints is one of my top 
priorities, and a priority for DHS leadership as well. In fiscal year 
2018, we will field almost 40 units for developmental and operational 
testing, with the goal of pursuing broader deployment and continued 
algorithm development in the first half of fiscal year 2019, dependent 
on funding availability. Such efforts for the acquisition of this 
technology and others will be reflected in the Capital Investment Plan 
and TSA Strategy and Intent that I am currently developing to guide our 
investment approach moving forward.
    Concurrent with our CT efforts, we are also pursuing other 
technologies to increase security at checkpoints. Two such technologies 
are enhanced Advanced Imaging Technology (AIT) and Credential 
Authentication Technology (CAT). TSA continues to improve our current 
AIT capabilities. As you may know, AIT uses imaging technology to scan 
individuals and analyze the images for the presence of anomalies 
beneath clothes, and in obscured areas. There are currently 945 AIT 
units deployed at 340 airports system-wide. Upgrades to this technology 
include greater detection capabilities in response to some of the 
vulnerabilities identified by the DHS Office of the Inspector General 
(OIG) in 2015 and in 2017. Other changes include software that will 
allow TSOs to process passengers through the AIT more expeditiously, 
thereby improving passenger flow through the checkpoint. In addition to 
these upgrades to currently fielded AIT units, TSA is working with 
other vendors to ensure we are testing every passenger screening 
technology available to provide our TSOs with better tools to assist 
them in performing their duties. TSA will be demonstrating an enhanced 
AIT capability in the field later this quarter, gaining critical 
insights into potential technology improvements that will move us 
closer to the future checkpoint vision.
    Another key technology under development for our checkpoints is 
CAT; which will greatly enhance the vital role that the Travel Document 
Checker (TDC) plays in ID verification, boarding pass validation, and 
screening status determination. Specifically, CAT will improve the 
TDC's ability to accurately authenticate passenger identification 
documents, passenger ticketing status, and Secure Flight passenger 
vetting status, thereby addressing vulnerabilities associated with ID 
fraud and providing real-time vetting information at the checkpoint on 
passengers. There are 33 CAT systems currently deployed for technical 
testing in TSA PreCheck lanes at 10 airports, including both Reagan 
National and Dulles airports, to optimize system functionality and 
associated Concept of Operations (CONOPS.)
    TSA is currently assessing another technology known as Automated 
Screening Lanes (ASLs). ASLs are already proving their worth and 
currently 111 ASLs are deployed at 12 airports including Newark, JFK, 
LaGuardia, Boston, and Atlanta. These lanes are not only designed to 
increase throughput, they also provide better security by offering 
capabilities such as automated pulls of bags needing further 
inspection, automated tracking of bins linking to the X-ray and picture 
images, and automated bin return allowing officers to focus on 
security, instead of moving bins from the end of the lane to the 
beginning. I envision that integrating CTs with ASLs will provide 
significant technological and screening process improvements at our 
checkpoints, and we plan on testing this integration in the near 
future. I appreciate the great partnerships with airlines and airports 
for their role in the procurement and deployment of ASLs.
                          acquisition process
    Critical to the success of TSA's technology strategy and our 
ability to stay ahead of the threat is the capability to acquire, 
procure, develop, test, and field new technologies in a timely manner. 
As the Chairman has noted, this is an area that needs improvement and I 
want to assure you we are evaluating ways to accelerate the acquisition 
process. In an effort to further identify ways to improve efficiencies 
in the process, DHS and TSA are evaluating existing rapid acquisition 
processes across the U.S. Government to leverage known experience and 
best practices as we develop a model to accelerate acquisition efforts 
and the ultimate deployment of effective solutions within a dynamic 
operational environment. With your support, we are confident that we 
will be able to create an acquisition paradigm that ensures accelerated 
deployment and preserves the integrity needed to deploy effective and 
cost-efficient capabilities.
                               conclusion
    TSA is committed to securing the Nation's transportation systems 
from terrorist activities and attacks. This year, we are focused on 
maturing and deploying additional CT-based systems and working closely 
with our domestic and international partners to raise the global 
baseline for aviation security. In addition, I'm developing a Capital 
Investment Plan, coupled with the TSA Strategy and Intent, which will 
chart the future course for improvements in checkpoints and checked 
baggage systems. I look forward to working with you on these efforts to 
secure our robust transportation sector. Thank you for the opportunity 
to discuss these important issues. I look forward to the subcommittee's 
questions.

    Mr. Katko. Thank you, Mr. Pekoske.
    Perfect timing, the Chairman of the full committee, Mr. 
McCaul, is here and he is recognized for an opening statement.
    Mr. McCaul. Thank you Chairman Katko.
    Administrator, thank you so much for being here and I 
appreciate your openness and our conversations, both publicly 
and privately.
    When you appeared before our committee in early November, 
we--briefed by yourself and the DHS inspector general in a 
Classified setting about specific vulnerabilities at our 
airports. In the hearing that followed, I said that I found the 
briefing to be disturbing. I think you would probably agree 
with that. I know my colleagues on both sides of the aisle feel 
the same way.
    As we have seen across Europe and in New York, many of the 
most recent terror attacks have been carried out with vehicles 
and other low-tech means. However, with millions of Americans 
traveling annually by airplane, our aviation sector still 
remains in my judgment the crown jewel of the terrorist.
    Even though there are 60,000 TSA employees working hard and 
we are very proud of them, to protect nearly 450 airports 
across the country, I believe we still need the most innovative 
and cutting-edge technology to keep our planes and passengers 
safe.
    As I stated at our full committee hearing in November, 
``America's enemies only have to be right once, but we have to 
be right 100 percent.'' They are just one airplane flight away. 
That is why I remain concerned by the agency's inability to 
deploy Computed Tomography or CT and Credential Authentication, 
which would greatly enhance detection of threatening objects.
    You and I talked very productively about this. This concern 
was also made clear in a November 9 letter to Acting Secretary 
Duke from myself and Chairman Katko, urging TSA to reform the 
acquisition and procurement process for screening technologies.
    Our letter also contained nine questions about what actions 
DHS and TSA are taking to improve the overall screening system. 
We appreciate your efforts to get a response to our committee. 
I must say we were a bit underwhelmed by the lack of details.
    In particular, one of the responses stated that CT systems 
beyond the prototype phase would not be deployed until early to 
mid-2019. There is an airport in Amsterdam that already uses 
American-made CT to screen bags. Not having this kind of 
enhanced security at our own airports I believe is 
unacceptable.
    It is also important that TSA work with our international 
partners to install CT scanners at airports overseas, 
particularly those in the high-threat areas from last point of 
departure which serve for in-bound flights.
    This is something I have expressed to you in our most 
recent conversations as recent as today, and I am hopeful that 
you and I can work together to come through a resolution to 
protect the American people.
    To keep our homeland safe, we must have the best technology 
efficiently and effectively deployed without further delay.
    Today, I am hoping we can have a detailed discussion on how 
to get that done so that the American people are better 
protected. With that, sir, I want to thank you for your service 
and thank you for being here today. I yield back.
    [The statement of Chairman McCaul follows:]
                Statement of Chairman Michael T. McCaul
                            January 18, 2018
    Before we begin I would like to welcome and thank Administrator 
Pekoske for joining us this morning to once again discuss how we can 
strengthen our aviation security.
    Administrator, when you appeared before our full committee in early 
November, we had just been briefed by yourself and the DHS inspector 
general in a Classified setting about specific vulnerabilities at our 
airports. In the hearing that followed, I said that I found the 
briefing to be ``disturbing.'' And I know my colleagues felt the same 
way.
    As we have seen across Europe and in New York City, many of the 
most recent terror attacks have been carried out with vehicles and 
other low-tech means. However, with millions of Americans traveling 
annually by airplane, our aviation sector still remains the ``crown 
jewel'' of targets.
    Even though there are 60,000 TSA employees working hard to protect 
nearly 450 airports across the country, we still need the most 
innovative and cutting-edge technology to keep our planes and 
passengers safe.
    As I stated at our full committee hearing in November, ``America's 
enemies only have to be right once, but we have to be right 100 percent 
of the time.'' That is why I remain concerned by the agency's inability 
to deploy Computed Tomography (CT) and Credential Authentication, which 
would greatly enhance detection of threatening objects.
    This concern was made clear in a November 9 letter to Acting 
Secretary Duke from myself and Chairman Katko, urging TSA to reform the 
acquisition and procurement processes for screening technologies. Our 
letter also contained 9 questions about what actions DHS and TSA are 
taking to improve the overall screening system. We appreciate TSA's 
efforts to get a response to our committee, however, we were 
underwhelmed by the lack of details.
    In particular, one of the responses stated that CT systems beyond 
the prototype phase, would not be deployed until early to mid-2019.
    There is an airport in Amsterdam (Schiphol) that already uses 
American-made CT to screen bags. Not having this kind of enhanced 
security at our own airports is just unacceptable.
    It is also important that TSA work with our international partners 
to install CT scanners at airports overseas which serve as the last 
point of departure for in-bound flights. This is something I have 
expressed to you in our most recent conversation and I am hopeful we 
can begin to make progress on that very soon.
    To keep our homeland safe, we must have the best technology 
efficiently and effectively deployed without further delay.
    Today, I am hoping we can have a detailed discussion on how we can 
get that done so that the American people are better protected.
    Thank you. I yield back the balance of my time.

    Mr. Katko. Thank you, Mr. Chairman.
    The Chair now recognizes myself for 5 minutes of questions. 
I want to say at the outset that we have to begin the line of 
question here that I gave you a heads-up on and that was the 
really terrible delinquencies that this agency has routinely 
engaged in responding to requests from Congress.
    You know, I know, the agency knows, that our request are 
not optional, particularly when they are in statute and when 
there is a deadline set. We don't set those deadlines 
arbitrarily or to make your lives miserable. But, in fact, we 
set them because we need the information. If you look back on 
the information we have requested, it has to do as keeping 
America safe, keeping our airlines safe, having a better 
procurement system and what-have-you at TSA.
    So, it is deeply disturbing that we have to talk about this 
stuff again and again. But and you and your predecessors have a 
pretty dismal track record of responding to us in a timely 
manner to things.
    I want to put a graphic up. You see it up on the screens 
here and you turn on your monitors in front of you as well. If 
I was a prosecutor, cross-examining someone, I love these types 
of graphics, but I am not a prosecutor and you are not my 
adversary.
    That is why I don't like this graphic. This graphic shows 
that of the--in the 115th Congress, 82 percent of the time you 
have had delinquent or very delinquent responses to inquiries 
from us, either oral or writing or from statutorily-missed 
deadlines, the 5-year plan of which was probably the worst.
    The content of what was in the 5-year plan to me was at 
best watered down and not very helpful. That 5-year plan is 
there and was designed years ago to try and get TSA to look 
forward and look ahead and it seems like we are beating our 
heads against the wall with that.
    There is just, for the record, so it is clear that out of 
the 17 requests you had from Congress this year, 14 of them 
were late or very, very late. We are not talking by a couple of 
hours. We are talking by days, weeks, and months. That is 
something that is absolutely unacceptable.
    We can provide to you after the hearing today or at any 
time a copy of each individual request, when it was done, when 
the deadline was and when the date of response was. It is 
routine like I said for it to be multiple months late and that 
is very difficult.
    Now, I want to talk about the biannual 5-year technology 
investment plan, which was submitted to the committee nearly 2 
months late. First of all, I guess I would ask why that was? 
Any reason for that, any justification for that? I understand 
part of this before you answer that question is that you came 
in the middle of this. That I understand.
    But you also have a professional staff who does a very good 
job and works very hard. I am just at a loss as to why it would 
be so late and you would just ignore a statutorily-mandated 
deadline.
    Mr. Pekoske. Yes, sir. We don't intentionally ignore 
deadlines whatsoever and as I said in my opening statement, 
this is a key priority of mine. I pride myself on being 
responsive to others' requests for information.
    I will take a personal interest in this to make sure that 
going forward we meet the deadlines that we have established to 
respond to this committee's--every Member of this committee.
    The reason that report was delayed and this is just a 
reason, it is not--the report should have been on time is the 
bottom line. The reason it was delayed is I got into office. I 
looked at the report. It already has been through staff 
clearance. It is not just staff clearance within TSA, it is 
staff clearance within the administration as well.
    There were some significant things that weren't in that 
report, for example, CT. You commented that even the report 
that you have today shows two CT systems being acquired.
    That is because we can only report what is in the budget 
request. That doesn't reflect our current thinking on CT as I 
just mentioned in my opening statement. So that report needed 
to be revised to at least bring it up to the more current 
information that was subsequently provided to the committee.
    But bottom line is that it shouldn't be late. I will take a 
personal interest in making sure that we are responsive to the 
committee's concerns. Like I said we very much appreciate your 
oversight. We want this to be a strong partnership.
    I think it already is a strong partnership but it can be 
even stronger. Every time I have talked to any Member of this 
committee, the first question they ask me after I brief them on 
whatever information I brief is: How can we help? I really 
appreciate that and I want to make sure that I do everything I 
can to provide you the information that you need going forward.
    The second thing I would mention, sir, is that I firmly 
believe in a long view. One of the things that TSA does not 
have is a long-term capital investment plan. So that is why we 
do fits-and-starts if you will on some of these projects. What 
I want to do is to be able to take a little bit longer view, a 
5-year look at what our capital requirements are and actually 
plan that out so that we see it and we can plan to it early 
enough on so that things go much smoother than what they have 
in the past.
    Mr. Katko. That is part of the reason why you have the 5-
year plans. We can help you looking forward. I mean, we have 
tried to force you--the agency to look forward. That is 
something you shouldn't have to start anew. It is something 
that is already there for you.
    I will note just for record that with respect to the letter 
we sent out on November 9, 2017 with Mr. Chairman to my right, 
it was a very pressing matter, a very serious matter. We got it 
Tuesday of just last week, which is almost a couple of months 
late.
    We are trying to help keep the country safe too and we have 
a job to make sure that oversight is done appropriately. We 
can't help you, which we want to do, if you don't give us 
information to help you with.
    If you haven't noticed, this is one of the most 
legislatively active committees probably in the history of 
Congress, under Mr. McCaul's leadership, and we churn out so 
many bills that are so important to keeping our country safe.
    We can't do the legislation unless we know what the problem 
is. For example, I am contemplating something to expand the 
resources for TSIF, which I know is a bottleneck for technology 
and we want to help with that. But we can't if we don't get the 
information, especially if we don't get the information in a 
timely manner, so I am confident you got the message.
    So with that I will recognize Mrs. Watson Coleman for 5 
minutes of questioning.
    Mrs. Watson Coleman. Thank you, Mr. Administrator. I wanted 
to get some clarity. You said that you were--you mentioned that 
you are going to be deploying 40 CTs through 20 airports and 20 
of them are going to go to airports. Is that right?
    Mr. Pekoske. Yes, Ma'am.
    Mrs. Watson Coleman. So where are the other 20 going?
    Mr. Pekoske. The other 12 are going to our labs, our 
testing facilities. So we are using three testing facilities 
and there will be four in each one of the testing facilities.
    Mrs. Watson Coleman. Now, how far away do you think you are 
of actually deploying these to the 440 airports Nation-wide?
    Mr. Pekoske. The testing articles that we deployed to 28 
airports in fiscal year 2018, we are very close to starting 
that deployment, so I would say in the next 3 or 4 months we 
will start to deploying those and testing those in a real 
environment.
    With respect to the full deployment, starting to spread out 
to the 450 airports, that begins in fiscal year 2019. The 
President's budget when that gets released, I will be able to 
discuss more fully what our plan is for fiscal 2019. But I can 
assure that there is a deployment plan in fiscal 2019.
    Mrs. Watson Coleman. I want to talk to you a little bit 
about surface transportation issues because I am always very 
concerned about that. Since the last time we talked in November 
there was an attempted terrorist attack in New York City's 
subway. What is the security technology plan for surface 
transportation security?
    Mr. Pekoske. We work with the owners and operators of 
surface transportation systems and TSA's role is to test 
technologies that might enable or enhanced surface 
transportation security. A good example is with that IED, 
person-borne IED up in New York, we are testing a technology 
that can detect at a distance if a person has something that is 
anomalous on their body.
    Essentially the technology reads millimeter waves that your 
body emits. It doesn't send any energy toward the person. It 
just reads what the person's body is emitting. It can tell at a 
pretty good distance like from, almost from me to you, Ma'am, 
whether or not there is an anomaly on your body that we might 
want to look at further.
    Mrs. Watson Coleman. So where would we be? Where are we in 
that process? How far away are we actually into being able to 
use this?
    Mr. Pekoske. Yes, ma'am. The TSIF, Transportation Security 
Integration Facility has been testing this. They should 
complete their testing this summer. That will be tested by TSA, 
the owners and operators of surface transportation systems will 
know it meets the testing regimen. They will have access to the 
data and they are able to purchase it knowing that, hey, this 
has already been tested. They don't have to make the investment 
in that testing technology.
    Mrs. Watson Coleman. So they actually have to purchase the 
whatever it is that is going to be able to detect this.
    Mr. Pekoske. Yes. We estimate the cost is about $100,000 
per machine.
    Mrs. Watson Coleman. Oh my. OK. I also wanted to know about 
whether or not in any way, shape, or form there are regulations 
that you are waiting to, sort-of, bring up that will enhance 
the surface transportation security issues and if you are in 
any way hampered by this administration's policies with regard 
to having to eliminate two in order to bring one up. That 
concerns me particularly in surface transportation because I 
just don't think we are up to snuff anyway on any level as it 
relates to surface transportation issues.
    So where are we? Do you have any problems with getting out 
the regulations that you need to get out?
    Mr. Pekoske. We have three such regulations that required 
by the 9/11 Act. Two of those three regulations are in the--we 
are all in the process of being put forward. The other one is 
still being developed. But we hope to have the first.
    The topics they cover are training for surface 
transportation, vetting for surface transportation employees, 
and then security plans for surface transportation systems. We 
expect the first regulation to come out some time this year and 
the next one the year following that. Then the third one is 
still in development.
    Mrs. Watson Coleman. So are you compelled to have to 
eliminate two in order to bring one forward? So----
    Mr. Pekoske. We are still working. Yes, ma'am. We are still 
working the implementation of that Executive Order inside the 
administration, so that process is still going on back and 
forth between the agencies.
    Mrs. Watson Coleman. OK. OK. I want to talk to you a little 
bit more about the TSOs because I think that whole issue with 
regard to their salary, the conditions under which they are 
employed. Their ability to make complaints and have those 
complaints dealt with by independent third parties, that kind 
of thing, I wanted to know what you have done personally to 
sort-of advance, not only this career path, but to ensure that 
they are more fairly compensated and more a part of a 
predictable system?
    Mr. Pekoske. Yes, ma'am. That is a key focus of mine. I 
spend a lot of time at the front line of TSA, meeting with our 
transportation security officers and understanding the work 
that they perform and the conditions under which they work.
    We have put together a career progression plan for our TSOs 
that we are still putting the final touches on, but we should 
have that done very, very shortly. Essentially what that does 
is it lays out for an employee when you come into TSA, here is 
your pay level. Here is the training that you are going to be 
provided at each step along the way of your career. This is 
provided by TSA. The training would be both resident training, 
in other words, we will send you to a school, most likely the 
TSA Academy at Glynco, Georgia for training or training is 
provided on-site for you.
    Then once you meet those training requirements, we have 
established pay increases for those employees. So you can 
really, as a new employee look at that map and say, ``If I get 
this training, and if I perform well, in X number of years, I 
can be at this level in the organization.'' Assuming there are 
vacancies there, of course.
    Mrs. Watson Coleman. It was anticipated that there would be 
a coming together of the union and the TSA and discuss, sort 
of, more formally, routinely what TSOs need and should have. 
OK. I will shut up in a second.
    Mr. Katko. Yes, it's all right.
    Mrs. Watson Coleman. So I know that the legislation hasn't 
passed but I do wonder whether or not those kinds of meetings 
are taking place. With that, actually, after you answer that I 
will yield back the balance of my time.
    Mr. Pekoske. Whenever I travel to an airport or a Federal 
air marshal service office in the field, I always do an all-
hands session with our employees. I use that opportunity to 
share with them my vision for the organization, some of the 
observations that I have made about TSA, where I want to take 
it, but the vast majority of the time is answering their 
questions and getting their feedback.
    Oftentimes what I will do is, for example, with this career 
progression, I will test drive it in some of those meetings and 
say, ``Hey, we are thinking about this. Give me some 
feedback.'' In almost every case, the union representatives 
have been part of that discussion.
    Mrs. Watson Coleman. Thank you. I yield back.
    Mr. Katko. Thank you, Mrs. Watson Coleman. The Chair now 
recognizes the gentleman from Texas, Mr. McCaul for 5 minutes 
of questions.
    Mr. McCaul. Thank you, Mr. Chairman.
    I know votes have been called and I know you know I will be 
visiting after.
    Mr. Pekoske. Yes, sir.
    Mr. McCaul. So, I will keep my questions very brief for the 
other Members, but I think this threat is getting worse, not 
better, without getting into a different room and space. I have 
been a big advocate for full deployment of the CT machines.
    Mr. Rogers has been a huge advocate for deployment of 
canines. Mr. Katko has been a real leader in terms of aviation 
security. I just want to ask you a very simply. As I understand 
it, you requested 300 CT machines to be deployed, is that 
correct?
    Mr. Pekoske. Yes, sir. In our hearing, the full committee 
hearing on November 8 that was the number we have been using 
was 300. And I----
    Mr. McCaul. I think at a minimum.
    Mr. Pekoske. Right.
    Mr. McCaul. As I understand it, is it correct that OMB, did 
they deny that request or just lower it to a 150 which would be 
half that amount?
    Mr. Pekoske. Whenever an agency requests a budget item from 
the Department of OMB, it goes through a review process and OMB 
and the Department have topline constraints. So they only have 
a certain amount of money they need to--they can allocate and 
they need to stick to that.
    Mr. McCaul. I understand that, but I mean this is dollars 
and cents, we are talking about American-wise. One hundred-
fifty million dollars, when we are talking about billions of 
dollars for a lot of other things, $150 million doesn't sound 
like a whole lot to ensure the safety of the traveling public.
    To cut that in half, when I think, quite frankly, we need 
more than 300 of these machines fully deployed, particularly in 
these dangerous countries that are last-point-of-departure 
airports. I flew back from Africa and Paris and Istanbul is--
Cairo is frightening when we inspected those airports.
    I will just close in saying this and I think speak for all 
Members on both sides of the aisle, I want to work with you to 
do two things, to reprogram monies for the request that you 
made for 300 machines.
    If we need an additional appropriation and I understand the 
confines here within the OMB and the White House, but I think 
we in Congress can make the case for you because I know what 
you want and we want to give you want you need to protect the 
traveling public.
    So, let me just end with that I think we all want to work 
with you to get to that number and I think anything less than 
that is unacceptable for the American people. So, I yield back.
    Mr. Katko. Mr. Chairman, I couldn't agree with you more and 
I don't think anyone on the committee disagrees with you at all 
on that. So, with that, we do have votes. We will stand 
adjourned until 5 minutes after votes conclude and we will 
resume at that time.
    [Recess.]
    Mr. Katko. The subcommittee is now back in session.
    I will turn to the gentleman from New Jersey, Mr. Payne, 
for 5 minutes of questioning.
    Mr. Payne. Thank you, Mr. Chairman.
    OK, one sec. Let us see, last year, Newark Airport became 
one of the first airports in the New York City region to have 
high-tech security checkpoints with the automated screening 
lanes. However, the strategic plan Refresh mentions that 
procurements are not anticipated until fiscal year 2020.
    To address these concerns and thus the Nation about 
screening checkpoint delays, does TSA intend to work with 
industry to accommodate non-Federal investment in ASLs 
potentially from the airlines or airports?
    Mr. Pekoske. Yes, Mr. Payne. We have 111 automated 
screening lanes deployed throughout the system. Every single 
one of those are automatic screening lanes was funded either by 
an airline or an airport, so they have provided the funding for 
those to let us do some developmental and some operational 
testing.
    There are no resources in the budget as it currently stands 
in fiscal 2018 for automated screening lanes, but we are 
standing up an acquisition project. This is one of the issues 
with how we proceed without a capital investment plan: Ideally, 
you would already have an automated screening lane project on 
the Government side so that when the industry-funded prototypes 
ran their course, that you had a project to come in behind 
that. We may see a little bit of a delay because that project 
wasn't stood up.
    Mr. Payne. OK. Now, we expect the President's budget to be 
out next month. Can you tell us in general terms about some of 
the TSA priorities in the budget?
    Mr. Pekoske. Sir, I can't go into any specifics, but in 
general, the President's budget reflects a resource-constrained 
approach because we just do not have unlimited resources to 
apply to any particular agency. I can share with you that----
    Mr. Payne. You don't sound too sure.
    Mr. Pekoske. Well, I know, I just cannot reveal what is in 
there at this point until the President releases the budget. 
Then I would be happy to sit down with you one on one to go 
over the particulars in that budget. But that should be the 
first or second week of February.
    Mr. Payne. So, there is something in it, though?
    Mr. Pekoske. Oh, there is.
    Mr. Payne. Oh, OK.
    Mr. Pekoske. Yes.
    Mr. Payne. All right, very good.
    As I am sure you are aware, TSA has consistently struggled 
with low morale across the work force. In 2016, TSA ranked 
303rd out of 305 Government agencies for morale, there is also 
an immediate need for improvements to the TSO pay and 
performance system as well as other work force priorities so we 
can improve the morale and reduce turnover.
    I understand that AFGE which represents front-line 
transportation security officers has reached out to you on 
issues of importance to the work force. Are you planning to 
work with those labor representatives to try to rectify some of 
these issues?
    Mr. Pekoske. Yes, sir. We are working with labor 
representatives. In fact, I met with the AFGE president already 
as one of my initial visits as the new administrator. 
Additionally, when I travel to airports around the country, the 
union representatives are always in those meetings, so I think 
we have a good dialog back and forth.
    Mr. Payne. How do you see addressing some of these issues 
from your standpoint?
    Mr. Pekoske. Sir, in my opening statement, I mentioned 
three key areas of priority for TSA. A key area, one of those 
three was a commitment to people. There are a number of 
subtasks underneath that that go to the very issue of 
increasing job satisfaction, by increasing retention within our 
work force.
    In my travels around TSA, actually my personal interactions 
with TSA, men and women at the checkpoints or the folks that 
are in checked baggage or behind the scenes doing inspections 
and things like that, I found very high morale and very strong 
mission focus. So, I am trying to reconcile the survey results 
with what I see personally.
    But, knowing that we do have some work to do there, we have 
seen some improvement in results from 2016 to 2017. I am open 
to see continued improvement in 2018, 2019, and 2020 for sure. 
From my perspective, sir, security effectiveness is directly 
related to worker satisfaction and job morale, so that is a 
very high priority one.
    Mr. Payne. OK. Well, I hope you are successful in that 
because, you know, being 303rd out of 305 indicates that there 
are obviously some issues.
    Mr. Pekoske. Yes, sir.
    Mr. Payne. I will yield back.
    Mr. Katko. Thank you.
    The Chair now recognizes the gentleman from Alabama, Mr. 
Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    Thank you for being here. We appreciate your service to our 
country. We have a lot of threats that originate overseas at 
last-point-of-departure airports. I am really curious to know 
what steps, if any, you all have been taking to work with our 
international partners to help them deal with deficiencies that 
the AT X-ray machines have in terms of screening passengers.
    Mr. Pekoske. Yes, sir. We have a number of people deployed 
overseas that are industry representatives or TSA 
representatives in countries, roughly 100 people overall. They 
have direct interaction with both the carriers, the airports, 
and the nations involved in the last-point-of-departure 
airports.
    As we have worked to raise the global bar in aviation 
security, those steps that we put in place in July and the 
additional measures that came into force in October, all of 
those inspectors and those TSA representatives are visiting all 
of, every single one of the last-point-of-departure airports 
just to see how they are doing with implementing those measures 
and importantly, to see where we can help them out.
    Mr. Rogers. OK. Do they seem receptive to that help?
    Mr. Pekoske. They do, certainly.
    Mr. Rogers. According to the Refresh plan, TSA plan to 
procure two CT machines a year until you found the technology 
worked. I talked with the Chairman about now that you feel 
comfortable with it, that you would like to have at least 300. 
Down the road, what is the total number you think that you 
would be able to need for across the transportation world 
spectrum?
    Mr. Pekoske. Yes, sir. Just for planning, it would be very, 
very simple and that is one for one replacement of the Advanced 
Technology of the AT machines with the CAT technology. That is 
roughly 2,400 machines overall. What we will find as we deploy 
the CAT machines that a one for one replacement may not be 
necessary. Additionally, a number of airports around the 
country are doing a lot of investment in their airport 
infrastructure and the way they invest may require more lanes 
for us or fewer. So, it is a very exact process to go through 
airport by airport and see where we can deploy the CT 
technology.
    Finally, there are some restrictions because the CT 
machines weigh more and they are a little bit bigger and so in 
some airports, we felt those infrastructure investments, they 
may not be able to handle a CT machine.
    Mr. Rogers. We understand if you are constrained by the 
President's budget in your advocacy, but the good news is the 
President proposes and we decide. So, we are going to do our 
best, as the Chairman said, to try and help you get what you 
need. I am curious, if you get to 300, what percentage of your 
capacity will that accommodate?
    Mr. Pekoske. If we get 300, I do not have the exact--
basically, it would be 300 over roughly 2,400. So, whatever 
that math turns out to be. What is also important is to have 
some level of predictability in the future funding stream. That 
is important for the manufacturers to understand that too.
    As we go through the testing process that we are in right 
now, we have a number of manufacturers' machines that we are 
testing. We do not know at this point how many manufacturers of 
this set that we are testing are actually going to succeed in 
that test and be listed on our product list. So, that will also 
determine how much capacity we can put out there. Basically it 
is going to be the capacity of the number of manufacturers.
    Mr. Rogers. OK. I want to shift over and I appreciate the 
fact that you have been full-throated in your support of the 
legislation we passed last week together with the establishing 
a working group for canine production and training. I hope that 
it is your expectation to give the same commitment to carrying 
out the report recommendations that they are going to yield as 
to how we implement those, that production in training.
    Mr. Pekoske. Yes, sir, absolutely. In fact, I would like to 
get a start on the requirements in the legislation before the 
legislation is even passed. I agree with it so much that I 
think we should not waste any time. We should just get about 
the business and get it done.
    Mr. Rogers. Great. I know you now talked about the fact 
that TSA is struggling with American vendors to get green dogs 
or dogs that have the capability but haven't been trained yet. 
What is the status? Is there any activity going on within TSA 
to kind-of modify their procurement processes to reflect more 
what DOD does?
    Mr. Pekoske. Yes, sir. We are constantly looking at that 
because our procurement processes, as many of the other Members 
have noted, they are lengthy. So my approach is to look at it 
and say how can we stream--even within the existing 
requirements that we have, how can we streamline that process 
to get to an end solution faster?
    My central effort in my strategy is going to be accelerate 
action, because as I look across TSA, many things just take a 
lot longer than I think they should take no matter what it is. 
It takes longer than I think what it should take. So, our key 
focus and certainly a focus on getting technology deployed out 
to our front-line work force which would include canines, 
because I firmly believe that we need to do everything we can 
to get the right tools in the hands of the men and women we 
have out there.
    Mr. Rogers. Great. My time has expired.
    I do have a couple of additional questions that I will 
submit for the record and I hope you will reply to those. I 
yield back.
    Mr. Katko. Thank you. I just want to note, we may do a 
quick second round if warranted.
    With that, I will recognize the gentleman from Louisiana.
    Mr. Higgins. Thank you, Mr. Chairman.
    Mr. Pekoske, thank you for appearing before us today.
    I would like to touch on a couple of subjects very quickly. 
My colleague mentioned morale in TSA. Would you have not 
contributed, the morale status, generally speaking at TSA be 
due to consistent failures and high turnover, would you 
contribute that as?
    Mr. Pekoske. Sir, I think there are a lot of factors that 
feed into the morale of our employees. Those would be two of 
the factors. I think other factors are the nature of the work, 
the competitive nature of the work, the stress that they are 
under, certainly some of the feedback they get from customers 
that might not be fair feedback and things like that.
    Mr. Higgins. But we touched upon an interesting aspect of 
this in mentioning a 5-year term rather than frequent turnover 
at the upper administrative levels. Morale is reflective of 
consistency in my experience. In 2017, just a couple of months 
ago, we passed, the Department of Homeland Security 
Authorization Act and it now languishes in the Senate. If our 
colleagues in the Senate will act and pass that full 
authorization which is for the first time, the Department of 
Homeland Security was authorized since its inception which 
consolidates it under the oversight of one committee and 
associated subcommittees.
    Would you not see that as a statement of consistency and 
therefore would contribute to an improvement of morale?
    Mr. Pekoske. Yes, sir, I would. I think that is very 
important. To your point on consistency of leadership, the 
Chairman mentioned the number of leaders he has seen just since 
he has been a member of this subcommittee and having some 
stability at the top of the organization I think is very 
important.
    Mr. Higgins. Thank you. I think it is very important and I 
hope my Senate colleagues are listening.
    I would like to jump to CT. Can you tell us why the great 
disparity between the 2017 Refresh Plan that stated 2 units for 
fiscal years 2018, 2019, and 2020 with a total of 6 and now we 
are talking about 40 in 2018 which is great, we would like to 
see you get them in every airport, everywhere at whatever level 
you need them.
    But why the great disparity between that report and you are 
advising us now?
    Mr. Pekoske. So the difference is that when that report was 
written, we didn't have budget numbers for our fiscal 2019 and 
forward. So what it reflects is the budget numbers that were 
existent at that time.
    Mr. Higgins. So, again, the consistency and full 
authorization of the Department of Homeland Security would 
assist us as a Nation to deploying this technology. Would you 
agree?
    Mr. Pekoske. I would in consistency of funding, I support 
it.
    Mr. Higgins. I hope my colleagues in the Senate are 
listening.
    I would like to jump to what you stated. You had stated, 
sir, in your testimony that, pardon me, you have a plan to 
aggressively deploy checkpoint CT technology and you are 
currently pursuing a flexible approach to test, procure, and 
deploy CT systems. Then you stated that you are focused on 
maturing and deploying. Maturing, by that, do you mean testing 
algorithms?
    Why can these units not be deployed and put in use 
protecting American citizens as the algorithms are tested and 
tweaked and matured? Why can't we go ahead and put the systems 
in place before we test them for a year or two?
    Mr. Pekoske. So, again, in fact the plan is to qualify the 
machines. It is just machines that work that meet a current 
standard and then the additional testing and the additional 
software development is for a new accessible property screening 
standard which gets to a wider range of explosives detection 
and----
    Mr. Higgins. So, you concur that that is--is that a goal?
    Mr. Pekoske. It is a goal, yes, sir. But, there are----
    Mr. Higgins. Thank you. Thank you, for that answer.
    Mr. Pekoske. Yes. But, we will have constraints in how fast 
we can deploy it just based on airport ability.
    Mr. Higgins. Oh, I see. Well, thank you for that 
clarification.
    My final 30 seconds, please touch on ground transportation 
and old technology of deployment of canines which this body has 
authorized the funding for many additional canine teams, do you 
not see that as an answer for our ground transportation system?
    Mr. Pekoske. Yes, sir. It is part of a solution set.
    Mr. Higgins. Are you aggressively pursuing that?
    Mr. Pekoske. Yes, sir. We have 675 canine teams that we 
provide to State and law enforcement for both airport and 
surface transportation.
    Mr. Higgins. Thank you for that.
    Mr. Chairman, I yield back.
    Mr. Katko. Thank you.
    The Chair now recognizes the gentleman from Pennsylvania, 
Mr. Fitzpatrick.
    Mr. Fitzpatrick. Thank you, Mr. Chairman.
    Thank you, Mr. Pekoske, for being here.
    My questions, I want to narrow it on cockpit safety 
specifically, the flight deck officer program. How is it 
working? What is working about it? What is not working? What 
are the areas of improvement with regard to efficiency? It is 
obviously run and overseen by the Air Marshal program.
    As a former Federal agent myself, we had a lot of 
interaction with that program or with those folks. I just want 
an update on what is working about it and what is not?
    Mr. Pekoske. I think it is working very well, sir. I have 
personally observed the training that the Federal flight deck 
officers go through. I think it is very rigorous, that they 
volunteer for this assignment, the airlines support their 
assignment. It provides an extra layer of security in aircraft 
which we very much value. So, I see no downside whatsoever to 
the FFDO program and see only upsides to it.
    Mr. Fitzpatrick. Is there anything that can be improved? Is 
it a purely voluntary program? Are their targeted percentages 
of the certain percentage of cockpits you want on in pilots or 
are pilots actually sought out after to participate in the 
program?
    Mr. Pekoske. Yes, sir, it is voluntary. Really, the more 
the better. I mean the more cockpit security we have, I think 
the better off we are.
    Mr. Fitzpatrick. OK, thank you, sir.
    My second question also pertaining to the cockpit is the 
idea of double barriers, something that has come up a lot. I 
would like it, sir, if can opine on the necessity of them, 
whether you think that they would make aircraft and airliners 
and therefore the passengers therein safer and more secure.
    Mr. Pekoske. I have looked at the overall cockpit security 
issues and as you know on flights where we deploy Federal air 
marshals, we generally put them in the forward part of the 
aircraft to provide that additional layer of security. Then 
when you consider the reinforced cockpit doors and then the 
potential of Federal flight deck officers being on an aircraft, 
there are several layers of security that are built in there.
    The additional barrier piece, I can get back to you as a 
question for the record on that. I don't have any specifics on 
that at this time, but I will look into it.
    Mr. Fitzpatrick. OK, because certainly the flight deck 
officer program helps. Certainly the air marshals help, 
fortified barriers on the doors themselves help. The concern, 
and the reason why myself and many people think the double 
barrier was necessary is during the change, when is the change 
in personnel in and out of the cockpit.
    Mr. Pekoske. Right.
    Mr. Fitzpatrick. Currently, what is being used to protect 
that are carts and attendants protecting the cockpit. Do you 
think it is safe to say that a double barrier to protect that 
change in the cockpit personnel would make the aircraft safer?
    Mr. Pekoske. Well certainly, it is vulnerable when the 
change is occurring. So something that could close that 
vulnerability would be useful for sure.
    Mr. Fitzpatrick. OK. Thank you, sir.
    I yield back.
    Mr. Katko. Thank you, Mr. Fitzpatrick.
    We will do just a brief second round and no one is 
compelled to ask questions if they are not inclined to do so. I 
just have a couple of follow-ups I wanted to touch upon.
    First of all, with respect to the 5-year plan and some of 
the responses in there, at one point, you stated that with 
respect to the CT machines that TSA, quote, expects actual 
deployment of CT systems to occur in early to mid-2019. What 
does that mean?
    Mr. Pekoske. That means that the deployment will probably 
occur about this time in 2019. Because part of the survey that 
we need to look at is when do we have surge periods at 
airports? Basically it is from the week before Thanksgiving all 
the way through the first week of January. You probably don't 
want to be deploying these systems during that week just for 
throughput reasons and for training reasons.
    Additionally, whenever we go through a surge period, the 
transportation security officers are always on duty and they 
are often working overtime. We do look for periods that are 
immediately after the surge periods so give them a little bit 
of time off and to conduct some training that we might not have 
been able to cover when they were going through a surge.
    Mr. Katko. We touched on this at the last hearing, but I 
wanted to just follow up just to make sure I am clear with 
this. You know that the actual machine you are contemplating is 
available now and you also know that it has been deployed now 
at least in other airports around the world, so the technology 
is there.
    There is some discussion about doing basically on-the-job 
tweaking if you will of that technology. Has there been any 
consideration given to just simply deploying them now as 
quickly as you can and tweaking, doing some of the tweaking 
that you need to do as you go, kind-of like learning as you go 
with this issue?
    Mr. Pekoske. Yes, sir. When we do the operational and 
developmental testing that's going to occur in fiscal year 
2018, so it is this fiscal year, we will pick those airports 
and we do have some flexibility in terms of throughput and do 
some actual real, live testing of those machines.
    Mr. Katko. That is not going to be something that is wide-
spread. You are basically going to wait until 2019 after the 
TCIF testing is done?
    Mr. Pekoske. Two-thousand nineteen is when the first large 
chunk of money will come into the program.
    Mr. Katko. I see. That is when you will be able to deploy. 
You are kind of waiting for the money as well, right?
    Mr. Pekoske. Right.
    Mr. Katko. OK, all right. Also I just want to mention, you 
mentioned at some point in your testimony earlier this 
afternoon that the importance of consistent funding streams 
with respect to Congress, and I couldn't agree more. But one of 
the complaints we have received from industry routinely is that 
TSA often moves the goal posts on what the agency plans to buy 
and when they plan to buy it with their funding request.
    I want you to comment on that if you are aware of that 
issue in your short time there and what are you planning to do 
as you try to address that? Because one of the concerns I have 
and we have discussed these many times, there is an awful lot 
of great technologies out there that never find a way to the 
battlefield if you will, because of these moving of the goal 
posts that has occurred in the past.
    It discourages entrepreneurs and upstart companies and it 
also discourages a lot of companies to invest the amount of 
money they have to, to try and get these contracts. So I wonder 
if you could address that issue for me.
    Mr. Pekoske. Yes, sir.
    One of the purposes for the innovation task force was to 
address that very issue, is how do we have a good, robust 
dialog back and forth with the industry, both large businesses 
and small businesses and really have an on-going dialog when we 
are doing developmental testing, so that the industry partners 
know how the developmental testing is going on? They can make 
some adjustments to their equipment as it is proceeding.
    Once you get into operational testing, that gets to be a 
little bit of a different animal. But I do think that a 
predictable funding stream is very, very valuable to the 
industry. I mean they are going to know that we are planning to 
invest X amount of dollars in 3 years hence. If they want to 
put R&D effort to be able to compete for those projects, they 
can do it early enough on, which actually at the end of the day 
benefits us as well in the process.
    So my goal is to have good, robust dialog with the industry 
and to see if we can get to a point where in the capital 
budget, we have a predictable funding stream. Right now, in 
checked bags, we have a very predictable funding stream. It is 
$250,000 per year and that allows us to look out. We know, in 3 
years, we are going to have $250,000 adjusted for inflation.
    So, airports and TSA can make plans for deploying those 
systems in an orderly fashion. The rest of the capital budget 
is not like that, so I really think it is very important to get 
to that capital investment plan.
    Mr. Katko. OK, great. I just want one last question since I 
have a minute here. This is something that is just a personal 
bugaboo of mine, I go to airports all over the world and mostly 
international airports have automated exit lanes and in fact 
Syracuse, New York of all places which is not exactly the 
busiest airport in the world has automated exit lanes.
    Every time I walk out an exit lane in National Airport or 
elsewhere, I see they have two to four people in the exit lane 
just checking IDs when they come through. No bags are being 
checked or nothing like that. I just wonder, first of all about 
have you looked into automated exit lane technology and whether 
that could save any money for TSA and the Government, No. 1?
    No. 2, given the current threat climate and I think there 
was a case last year where one of the flight attendants was 
trying to smuggle on a significant amount of cocaine through 
the exit lane check-in procedure. Is there any concern about 
the exit lanes as being a security gap that might want to be 
addressed? Because I know the exit lane technology out there 
now is pretty much 100 percent certainty that people aren't 
going to sneak through that way. I just want to ask you about 
that.
    Mr. Pekoske. Yes, sir.
    We look at those technologies and one of my biggest 
concerns in terms of resourcing overall is the number of people 
TSA has at the checkpoints, because I don't think that is 
enough people. It is evidenced by the fact that we are having 
to use a lot of overtime to get through surge periods that we 
are not able to conduct training during those surge periods and 
things like that. I think it affects morale too if you are in a 
job and you are tasked to work extraordinary hours on a regular 
basis, I think that affects your overall perspective of that 
particular position.
    So my goal is to look at the resource base of TSA and see 
where we can put additional resources currently existing in the 
agency at the front line, because, again, my focus is on that 
front line.
    Mr. Katko. OK, and I would like to hear more when we get a 
chance to just think about the exit lane technology, something 
we addressed in some hearings a couple of years ago. I think it 
is something we have to take another look at just from a 
manpower standpoint, but also from a cost standpoint.
    With that, the Chair now recognizes the gentlewoman from 
New Jersey, Mrs. Watson Coleman.
    Mrs. Watson Coleman. Thank you.
    Mr. Pekoske, you have given us a lot of good information 
today and you certainly have expressed a commitment and 
understanding of the challenges and the commitment to resolve a 
lot of these issues. So, I just hope you have long enough to do 
that.
    Mr. Pekoske. Thank you.
    Mrs. Watson Coleman. Try not going anywhere for a while.
    Mr. Katko. I will second that.
    Mrs. Watson Coleman. Last week, there was this report about 
a potential conflict of interest between staff at the 
Department of Homeland Security and a computed tomography 
contract that was awarded. I think we should all agree that 
contracts should be awarded fairly.
    One article mentioned that the staff was recused from all 
matters involving the contractor. I am concerned about other 
potential conflicts at TSA. Would you be able to speak to the 
sort-of regularity of how this has been happening and would you 
also be able to provide our staff with the list of the 
individuals and the reasons for their recusals?
    Mr. Pekoske. Yes, ma'am. I will definitely take a look into 
that. I am not familiar with the particulars of that particular 
case, but I know in my own example, I have recusals from a 
number of items based on my business relationships before I 
came into this position, and we are very, very, very careful 
about making sure that every aspect of that is complied with.
    I think that the competition needs to be fair, open, and 
transparent and if there is any break in that particular model, 
I want to take a look at it.
    Mrs. Watson Coleman. Just to follow up on that, do you find 
the rate of recusal more now than, let us say, in sort-of the 
last terms?
    Mr. Pekoske. I would not have a good basis to make that 
comparison.
    Mrs. Watson Coleman. Can you?
    Mr. Pekoske. I can get the data. Yes, ma'am.
    Mrs. Watson Coleman. Would you share that with us?
    Mr. Pekoske. Yes, ma'am. Thank you.
    Mrs. Watson Coleman. Thanks. I yield back.
    Mr. Katko. The Chair now recognizes the gentleman from 
Louisiana, Mr. Higgins, for questioning.
    Mr. Higgins. Thank you, Mr. Chairman.
    Mr. Pekoske, I would just like to state that I echo the 
sentiments of my colleagues that we certainly hope you stay on 
the job, extremely squared away and your testimony today has 
been uplifting.
    I would like to jump back into canines for a moment 
regarding cargo and airport employee areas, restricted areas. 
We expend a great deal of energy and technology to screen our 
passengers to the extent that the deterrent factor is largely 
in place. I personally believe that if an airplane is to be 
hijacked by firearm, it is going to come from the cargo area or 
the airport employee restricted access area.
    So, regarding the use of canines and more specifically 
American-bred canine teams, what is your vision on using old 
technology, given what you stated as, I think you used a term 
called budget-restrained environment, old technology being 
certainly less expensive than new and canine team technology 
and capabilities being very, very adequate regarding detection 
of explosives, how do you envision the cargo areas and 
restricted access areas of airports and using canine teams?
    Mr. Pekoske. Yes, sir. Canine teams are effective in that 
environment. Not only to detect potential issues of concern, 
but also to provide that deterrent effect as you mentioned. The 
Aviation Security Advisory Council has a subcommittee on 
insider threat and I have asked that subcommittee to take 
another look at that overall issue because I think it is 
something that we just need to keep a constant stare on and we 
should not look at it two or 3 years ago and say, OK, we have 
got adequate procedures in place, I think we need to constantly 
review that.
    I would also add, sir, that in our global efforts to raise 
the bar in aviation security, that second phase that began to 
be implemented on October 26 contains security around aircraft 
that are destined for the United States in foreign airports.
    Mr. Higgins. Yes, sir. Thank you for that answer. Thank you 
for your testimony.
    Mr. Chairman, I yield back.
    Mr. Katko. Thank you.
    The Chair recognizes the gentleman from New Jersey, Mr. 
Payne, if he has any questions.
    Mr. Payne. No questions at this time. Thank you for your 
service to this country.
    Mr. Katko. OK, thank you very much, Mr. Payne.
    Before we close, I do want to note that, listen, we had to 
get into some tough stuff here. That is part of our job at 
oversight. We would not be dispatching our duties if we did not 
do so. But that doesn't take away from the fact that we view 
what TSA is doing in the front line everyday keeping America 
safe and keeping the skies guys safe and terror-free is 
really--they are doing a great job and we appreciate 
everything.
    So yes, our job is to bark at you. Our job is to point out 
where you are falling down. But, it is also incumbent upon us 
to point out what you are doing well. The agency is making 
progress. It has a long way to go, but I am confident that your 
leadership and your team that is there and even the young lady 
that would be going there next week with you, that you are 
going to be all right.
    I just hope that you understand that this is an interactive 
relationship and that when you need things, you have to let 
this committee know and we will respond. We will respond 
legislatively. We will respond in any way we can to help you, 
because I think it is in all of our interests to keep this 
country safe and we know from our briefings that the bad guys 
are still trying to get us in any way they can and their 
technologies are getting more advanced. We have to advance with 
them. That is why we spend so much time on the acquisitions 
process and trying to help streamline that process. We have to 
get the best tools available to the front lines.
    I think the same way about my son who has just graduated 
Fort Benning, Georgia, officer training and could be put in 
harms' way tomorrow and it is incumbent upon us to make sure 
that he has every weapon at his disposal to both protect 
himself and to get the enemy. I view it the same way here.
    So, while we point out the tough stuff, we also want to say 
thank you to each and everybody, each and every person that 
works at TSA. You can obviously do a lot of other things 
elsewhere and a lot of you could be making a lot more money 
elsewhere, but you do that because you want to keep your 
country safe and that is a very commendable thing.
    Before I close, I do want to note that after several years 
with us, Krista Harvey would be going over to your shop. While 
we are sad to see her go, we are glad to see her going to your 
place. I encourage you to use her experience here because she 
is going to be very helpful for you. Don't figure out how to 
get me over, Krista, OK, all right?
    So, thank you all very much. With that, let me see if I can 
find my closing notes here, here we go. I want to thank 
everybody for their questions today. It was great as usual. I 
want to thank Bonnie Watson Coleman, my colleague and friend 
for her usual great work.
    The Members of the committee have 5 additional days to 
submit questions and for the witness to respond in writing. 
Pursuant to committee Rule VII(D), the hearing record will be 
held open for 10 days. Without objection, this subcommittee 
stands adjourned.
    [Whereupon, at 4:07 p.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

        Questions From Chairman John Katko for David P. Pekoske
    Question 1a. Last spring, we saw the emergence of a serious new 
threat to the aviation system relating to personal electronic devices 
(PEDs). The threat had a significant, rippling effect on the 
international aviation system, with last-point-of-departure airports 
required to take drastic steps to increase security and passengers in 
the United States are now required to take PEDs out of their carry-on 
bags. The latest intelligence indicates that we are in a very dynamic 
and evolving threat landscape that could have significant implications 
on aviation security and the international economy.
    Will the investments outlined in the Refresh Plan for 
transportation security equipment keep pace with the evolving threats 
to aviation?
    Answer. TSA operates within a complex and evolving threat 
environment, and technology acquisition programs must proactively 
respond to emerging threats to protect transportation security. To 
address threats and increase security effectiveness, TSA is focused on 
deploying an effective, adaptive, and flexible system of security 
capabilities. TSA pursues enhanced capability development to address 
capability gaps, optimize existing technologies, and develop future 
technologies. It is our intent that the investment detailed in the 
Strategic Five-Year Technology Investment Plan Biennial Refresh Plan 
will meet current and future threats to aviation.
    Question 1b. Can you describe in detail how the TSA's Refresh Plan 
will accelerate significant advancements in security technology 
capabilities and deployment of these systems at the Nation's 
checkpoints and checked baggage systems?
    Answer. TSA's acquisition strategies will continue to transform to 
address threats within the transportation security environment, and 
reflect the goals outlined in the Strategic Five-Year Technology 
Investment Plan Biennial Refresh, which provides industry and other 
stakeholders with the Agency's strategic direction in order to align 
investments accordingly. The Refresh provides information regarding 
planned purchases within established acquisition programs as well as 
focusing on emerging capability areas. For example, TSA provides its 
detailed acquisition plan to rapidly test, procure, and deploy 
available Computed Tomography systems, which TSA believes will 
significantly increase security effectiveness at the checkpoint. In 
addition, the on-going technology initiatives and innovative concepts 
outlined in the Refresh Plan detail TSA's continued progress in its 
pursuit to address capability gaps, optimize existing technologies, and 
develop future technologies. Last, the Refresh Plan details how the 
Innovation Task Force is demonstrating innovative and emerging 
capabilities. These demonstrations provide stakeholders within the 
security technology industry real-life operational experience and data, 
which in turn may reduce technology transition time and cost, and 
better inform TSA requirements. The Strategic Five-Year Technology 
Investment Plan Biennial Refresh is one of many avenues that TSA uses 
to foster dialog and collaboration with its stakeholders and to provide 
transparency. TSA will continue to work with industry to develop 
capabilities that meet requirements and will work internally to shorten 
acquisition time lines to accelerate the deployment of capabilities to 
checkpoints and checked baggage across the Nation.
    Question 1c. Can you describe how the Refresh Plan fosters a robust 
domestic security manufacturing base and enhances competition to drive 
innovation in aviation security?
    Answer. Within the Strategic Five-Year Technology Investment Plan 
Biennial Refresh, TSA provides industry and other stakeholders an 
understanding of where it intends to invest to elevate checkpoint 
screening capabilities. The Refresh provides information regarding 
planned purchases within established acquisition programs, as well as 
focusing on emerging technologies. TSA will continue to collaborate 
with and inform the domestic security manufacturing base to ensure it 
has an understanding of TSA's direction, which should foster both 
competition and innovation.
    Question 2a. Last year the Aviation Security Advisory Committee 
(ASAC) undertook a comprehensive effort to assess the effectiveness of 
checkpoints at U.S. airports, and presented to TSA 35 specific 
recommendations in a report titled Improving Checkpoints at U.S. 
Airports. This report sets the vision for checkpoints of the future, 
which includes the fielding of next-generation technologies that will 
significantly increase security and improve the passenger experience.
    Will the TSA's Refresh Plan meet the vision outlined in the ASAC 
report?
    Answer. TSA continues to work with the ASAC to implement the 
recommendations within the ASAC report.
    TSA concurred with all recommendations within the ASAC report and 
responded to the subcommittee with detailed implementation plans for 
each one, including milestones to full implementation. The status of 
these recommendations are discussed at ASAC subcommittee meetings. In 
addition, TSA will ensure that future reports to refresh TSA's 
Strategic Five-Year Technology Investment Plan consider these 
recommendations, as applicable to security technology.
    The Strategic Five-Year Technology Investment Plan Biennial Refresh 
was considered in the development of the Aviation Security Advisory 
Committee (ASAC) Report. TSA believes that the efforts detailed within 
the Refresh Plan show TSA's continued progress to address threats and 
increase security effectiveness at checkpoints at U.S. Airports.
    Question 2b. Does TSA have the funding necessary to accelerate the 
development and deployment of increased capabilities and next-
generation technologies as soon as possible to meet the evolving 
threats?
    Answer. Yes, TSA has been able to work with its allocated funding 
to best support the development of capabilities to address evolving 
threats and to develop strategies to test and deploy technologies 
faster. TSA will continue to use the established processes to request 
any additional funding if necessary to further accelerate increased 
capabilities.
    Question 2c. Notwithstanding current or anticipated budgets, has 
the TSA identified the funding requirements needed to accomplish the 
mission and meet the evolving threats, as the ASAC has recommended?
    Answer. Yes, TSA has identified the requirements and will continue 
to fund those requirements within existing resources. Within a budget-
constrained environment, TSA prioritizes and makes difficult decisions 
of what to resource and what not to resource. TSA will continue to look 
for funding opportunities to best accomplish its mission to include 
addressing known and evolving threats and will continue to follow the 
established acquisition life-cycle process and the established 
processes to request additional funding if necessary to accelerate 
increased capabilities.
    Question 2d. TSA's Electronic Baggage Screening Program (EBSP) has 
a $250 million capital fund each year, which provides multi-year 
funding for screening equipment upgrades and replacement. This provides 
some consistency and certainty in making future investment decisions 
for checked baggage system projects. Would the establishment of a 
capital fund for the Passenger Screening Program (PSP) help the TSA 
improve the checkpoint equipment?
    Answer. The administration has proposed that the traveling public 
pay a greater share of aviation security costs through higher fees. 
While the establishment of a capital fund to resource capabilities 
within the checkpoint would provide a more stable planning, 
programming, and budgeting process, any additional funds should not 
increase deficit spending.
    Question 3a. The ASAC Checkpoint Report also contains a number of 
specific recommendations for the TSA to vastly improve the long and 
expensive security equipment development and acquisitions process. In 
particular, the TSA test and evaluation process takes many years with 
high costs to Government and industry. The Refresh Plan provides 
additional details on the recent TSA reorganization and how it will 
enhance the process.
    Does TSA have examples of any efficiencies or time saved in the 
development and acquisitions process since the reorganization?
    Answer. The TSA reorganization addressed a need to create an 
organizational structure that centralizes acquisition programs in a 
single chain of command, establishes a dedicated requirements 
organization to enhance acquisition life-cycle processes, and separates 
contracting functions from broader acquisition management. One of the 
significant efforts that TSA is driving under the new organization is 
the rapid development, qualification, procurement, and deployment of 
Computed Tomography (CT) technology for checkpoints. The development of 
the acquisition strategy to aggressively deploy CT demonstrates how we 
are working to assess, develop, and deploy technologies faster and 
marshaling the focus of the entire agency. We are currently using 
existing processes such as field demonstrations, operational 
assessments, and developmental testing to develop screening 
capabilities in a time-constrained manner.
    Question 3b. Has the TSA set specific metrics or goals to measure 
reduced times for equipment development and qualification? Has the TSA 
established any specific metrics or goals to reduce the T&E time frame, 
as a means to measure progress?
    Answer. TSA monitors the time it takes for equipment to move 
through the qualification process (also referred to as the test and 
evaluation process), but much of that time line is dependent on the 
maturity and readiness of the technology to meet TSA requirements. Some 
Transportation Security Equipment failures during Qualification and 
Operational Tests have unfortunately created an iterative cycle of 
test, fix, and re-test that extends acquisition time lines and drives 
up test and evaluation costs.
    One of the goals of the Innovation Task Force (ITF) is to provide 
more immediate feedback to vendors on the performance of their 
technologies in the transportation security environment. One metric 
that ITF uses to assess the success of its Broad Agency Announcement 
(BAA) is looking at the number of small technology companies, 
international companies, and/or first-time TSA companies that apply and 
are accepted for a capability demonstration and comparing it to 
historical industry demographics. The goal is to increase TSA's 
industry footprint to help identify innovative and effective security 
solutions.
    Also, TSA is working on opportunities to enhance test and 
evaluation practices such as expediting and supplementing testing by 
accepting vendor and/or third-party agent test data; avoiding 
duplication by leveraging existing test data through the creation of 
data-sharing agreements with international government entities; looking 
into using accredited Modeling & Simulation to augment live testing and 
support evaluations that cannot be assessed in a live environment; and 
looking into flexible testing processes that allow for a better 
understanding of system capabilities prior to entering formal 
Operational Tests. While the goal is to reduce the burden of excessive, 
timely, and costly testing, TSA is still in the planning process of 
this shift and has not established specific metrics for success to 
date.
    Question 3c. TSA is exploring third-party testing to gain 
efficiencies in the testing process. Will the third-party testing 
policy ensure that determinations made by the third party will be 
accepted by the TSA, so the testing process does not have to be 
replicated?
    Answer. The acceptance of data will be based on a thorough data 
source assessment of risk and a review of the test plans and data 
provided. Vendor-provided documentation demonstrating a robust test 
organization, sound test plan, and successful results executed will be 
accepted on a case-by-case basis specific to the technology and extent 
of third-party testing. TSA testing will be reduced when vendor-
provided third-party testing demonstrates the necessary rigor to 
replace Government-conducted testing.
    The TSA Acquisition Qualification Policy and TSA Test and 
Evaluation (T&E) Guidebook established a consistent acquisition 
approach that is compliant with the Department of Homeland Security 
(DHS) Instruction 102-01-001 Acquisition Management Instruction 
(series). Application of these published documents, allows TSA to 
ensure vendor-provided information (e.g., third-party test data) is 
sufficient to demonstrate system readiness to enter the TSA T&E 
process. As TSA considers third-party data, it may reduce test and 
evaluation time lines by increasing the maturity of systems thereby 
decreasing the probability of retests and possible reduction of TSA 
Qualification Testing and help validate and/or supplement TSA T&E 
results.
    Question 3d. TSA has indicated to the vendor community it will open 
up a notional, ``checkpoint of the future'' in Las Vegas McCarran 
International Airport to test and evaluate multiple types of technology 
including biometrics, Advanced Imaging Technologies, and CT systems. 
TSA has also indicated they may test different configurations of AT/CT 
and ASL configurations due to the lack of space at the TSA Integration 
Facility located adjacent to Washington Reagan National Airport. Given 
a shortage of engineering and testing personnel, the existing backlog 
at the TSIF, and geographic challenges, what new assets and resources 
will be deployed for the effort at Las Vegas McCarran? Do you 
anticipate reducing the workforce at the TSIF to accommodate this 
effort? Were alternative locations closer to TSA testing personnel or 
manufacturers' facilities considered? Will TSA be funding procurement 
and installation of various ASL configurations as part of this 
demonstration?
    Answer. TSA does not have a shortage of engineering or testing 
personnel or a backlog at the TSA System Integration Facility (TSIF). 
TSA does have a need for additional opportunities to collect live 
operational data. Las Vegas McCarran International Airport (LAS) has 
offered to provide TSA with checkpoint space that is not currently 
being utilized by the airport for standard operations. The use of this 
space will allow TSA the flexibility to run parallel tracks at TSIF and 
in the field. It will also enable TSA to assess new designs, 
technologies, and procedures in an operational environment and inform 
requirements as the agency continues to drive a future security 
screening strategy. The focus will be reducing the time it will take to 
assess and deploy systems in specific configurations for demonstration.
    TSA has an application process for airports interested in 
participating as Innovation Sites. Las Vegas McCarran International 
Airport (LAS) submitted an application and was selected for this 
opportunity. None of the National Capital Region airports (DCA, IAD, or 
BWI) have applied to be an Innovation Airport.
    TSA is currently identifying requirements surrounding staff 
availability, local operational impact, benefits to our public-private 
partnerships and benefits for industry. At this time, TSA is planning 
to use current resources to conduct its testing and assessment 
requirements both at its facilities and alternate locations.
    In order to fully demonstrate the Computed Tomography (CT) 
operational capability, TSA intends to demonstrate CT integration with 
Automated Screening Lanes (ASL) and/or an automated ingress/egress belt 
system to understand impacts in effectiveness and efficiency. LAS 
provides an opportunity to rapidly obtain data in a live operational 
environment, while the TSIF maintains its focus on laboratory 
functional and developmental testing. Additionally, the number of 
hardware configurations, between CT and ASL equipment, require 
significant space.
    Question 3e. Figure 2 is an Overview of the Acquisition Lifecycle 
for Security Technology. The ability to meet evolving threats in the 
future will be heavily reliant on algorithm development. Will new 
algorithm acquisition/deployment also proceed under a similar 
acquisition framework? If not, has that process been defined? Can it be 
provided to the committee?
    Answer. In general, the development and deployment of new 
algorithms to meet new threats are required to comply with the 
acquisition framework depicted in Figure 2 of the Refresh Plan and the 
Department of Homeland Security (DHS) Instruction 102-01-001 
Acquisition Management Instruction. When algorithm enhancements are 
already associated with a technology that has approved requirements, 
TSA, in coordination with DHS, performs an analysis to determine where, 
within the framework, TSA can initiate the process to support the 
development and deployment of new algorithms. In addition, TSA is able 
to tailor the existing acquisition processes and look to delegate 
authorities as necessary and appropriate.
    Question 3f. Does TSA possess rapid procurement authorities to 
purchase and install significant quantities of TSE post-Innovation Task 
Force, bypassing the process outlined in Appendix F? For example, has 
TSA considered the use of innovative contracting methods to greatly 
accelerate the prototyping and procurements of new equipment, including 
executing Urgent Operational Needs (UONs) or Other Transaction 
Authority (OTAs)? If not, can you please recommend a rapid acquisition 
authority that would be feasible with TSA's acquisition framework?
    Answer. TSA has used rapid acquisition authorities in the past. In 
September 2016, DHS approved an Urgent Operational Need (UON) 
justification authorizing the deployment of Automated Screening Lanes 
at specified airports. This deployment was dependent upon TSA's 
partnerships with stakeholders. Two of our largest ASL deployments 
include 22 lanes at Hartsfield-Jackson Atlanta International Airport 
and 17 lanes at Newark Liberty International Airport.
    TSA is working closely with the Department to help draft policy 
which would help DHS components achieve a more rapid acquisition life 
cycle when needed. Additionally, TSA is exploring whether it could 
adopt an emergent acquisition process similar to DOD's Joint 
Improvised-threat Defeat Organization (JIDO) Joint Emergent Operational 
Need (JEON) to gain flexibility in responding to non-urgent, but 
pressing threats. TSA would be glad to brief the committee on its 
findings from this assessment.
    Question 4a. Around 50 percent of all passenger airline travel has 
cargo in the bay of the aircraft, yet TSA's Refresh Plan makes no 
reference to cargo security. This omission greatly concerns the 
committee. We understand that, while TSA delegates responsibility for 
cargo screening to freight forwarders and therefore does not itself 
purchase cargo screening equipment, the cargo security threat is 
recognized and there is work being done within DHS S&T to advance 
screening technology in this area.
    Does TSA accept the findings of such organizations as the GAO and 
CRS and view air cargo as a serious security concern and, if so, what 
are TSA's specific plans for incorporating advanced, non-intrusive 
cargo screening technologies into TSA's R&D and materiel acquisition 
planning?
    Question 4b. Is it possible to tie in the Air Cargo requirements 
with the requirements of other agencies, such as the CBP Non-Intrusive 
Inspection organization?
    Answer. TSA agrees with GAO and CRS's view of air cargo as a 
serious security concern, and has had programs addressing air cargo 
threats since at least 2004. In response to the increased threat of a 
bomb being smuggled on-board an aircraft bound for the United States, 
and working in close coordination with CBP, TSA recently issued 
emergency directives requiring stricter scrutiny of air cargo being 
loaded onto flights at last-point-of-departure airports in 6 
countries--Egypt, Jordan, Qatar, Saudi Arabia, Turkey, and the United 
Arab Emirates. These new requirements include required electronic 
submission of additional data elements for the cargo before any cargo 
is laden onto an aircraft bound for the United States. TSA is also 
required by public law and regulation to assess and qualify 
technologies for screening air cargo. The agency's goal is to stimulate 
and support a robust air cargo security technology marketplace. TSA has 
the ability to continuously receive vendor requests for qualification 
of prospective technologies, and works collaboratively with vendors to 
refine the technologies they propose.
    TSA is also partnering with the Air Cargo Associations and canine 
companies to initiate a Third-Party Canine Cargo program. This new 
program will provide the capability for private industry to screen 
cargo utilizing private canine companies certified to TSA standards.
    TSA actively collaborates with CBP and other Government agencies 
(for example, DOD and DOT) to harmonize requirements. The DHS Joint 
Requirements Council architecture is also very helpful in this regard. 
The threat characteristics associated with air cargo on both passenger 
and all-cargo aircraft are significantly different than those generally 
associated with cargo transported on other means. Accordingly, not all 
technologies used by other agencies are effective for air cargo 
transported in flight.
    Question 5a. TSA's Refresh Plan contains an update on the state of 
hardening the aviation security system against cybersecurity threats 
and attacks.
    Can you describe specifically the status of the cybersecurity 
elements of the Security Technology Integrated Program (STIP) and any 
on-going challenges?
    Answer. The Security Technology Integrated Program (STIP) comprises 
a platform of technology that provides secure connectivity to 
Transportation Security Equipment (TSE) endpoints that are deployed in 
the field. Currently, and because of DHS internal policies 4300A, DHS 
4300B, and NIST cyber controls, most of the TSEs are not connected to 
the network. In support of generating connectivity for TSE endpoints, 
DHS/TSA mandated 9 cybersecurity requirements, (OS Currency/Security 
Patching; OS hardening; AV Updates; PIV Compatibility; Security 
Scanning Support; Technical Obsolescence; SOC Monitoring; POAM Support 
and Vendor ISSO Designation) which were established following the OPM 
breaches in 2015, and are subsequently required to be implemented on 
TSE devices. Facilitating this secure connectivity establishes a 
centralized enterprise-wide data management system, which facilitates 
the exchange of information between the TSE and data center.
    STIP is active in multiple activities to further enhance 
cybersecurity elements. Specifically, STIP is engaging with the 
security technology acquisition programs to inform them of implementing 
the 9 DHS/TSA mandated cybersecurity requirements, as well as 
additional security requirements (e.g., mandated by DHS 4300A policy, 
NIST standards, etc.) so that programs can achieve an Authority to 
Operate (ATO), and maintain cybersecurity compliance. The technology 
acquisition programs are in the initial stages of evaluating its 
technology for cybersecurity compliance and determining implementation 
time lines. The Credential Authentication Technology (CAT) program is 
an exception, as the system has met the 9 DHS/TSA mandated 
cybersecurity requirements. TSA is working toward deployment of CAT 
systems in fiscal year 2019. Starting in fiscal year 2018, TSA intends 
to begin development of technical solutions for security at the 
endpoints and for the STIP application, which will facilitate all other 
security technology meeting cybersecurity requirements and enabling the 
TSA to connect TSE to the network in a phased approach over the next 6 
years.
    Question 5b. How does TSA ensure the cybersecurity of security 
technology deployed in the field?
    Answer. As part of TSA's plan for continuous monitoring of the 
field equipment, TSA will be creating multiple systems associated with 
each type of transportation security equipment (TSE) to meet the 
requirements of the Federal Information Security Management Act 
(FISMA). Each identified FISMA system will be required to go through 
the Security Authorization process which will allow TSA to continuously 
assess the risks associated with the field TSEs on an on-going basis as 
well as identify security controls that can be put in place to secure 
the TSE.
    Currently, no additional deployed TSE equipment, with the 
exceptions of Credential Authentication Technology and Walk-Through 
Metal Detectors, are connected to the TSA network. TSA has made a 
determination that for TSE to connect to the TSA Network, the system 
must meet 9 minimum cybersecurity requirements. Any potential 
connectivity solution must meet 2 specific security needs. No. 1, it 
must be able to protect the TSA network and STIP backend 
infrastructure. In other words, it must be able to secure the larger 
TSANet from malware and cyber attacks originating from the TSE. No. 2, 
it must be able to protect the TSE itself from compromise or attack.
    Question 5c. To what extent has TSA conducted penetration tests of 
this security technology to understand how an adversary might gain 
unauthorized access to the technology?
    Answer. TSA recently conducted a penetration test against STIP in 
the Test and Production environments and on the Credential 
Authentication Technology. TSA conducted the test based on known 
exploits that have been previously identified and approved. The 
testing, done in concert with other compliance and vulnerability 
testing, identified several opportunities to increase the security 
posture of these systems. The testing results have been added to the 
current system-level patching and deployment schedule.
    Question 5d. Could you describe the level of coordination between 
TSA and the DHS Office of Cybersecurity and Communications (CS&C) on 
cybersecurity matters? Has TSA ever requested an independent 
cybersecurity assessment from DHS CS&C?
    Answer. TSA has been actively coordinating with CS&C on multiple 
occasions to include participation in the High-Value Asset Security 
Assessment Review (SAR) and Risk and Vulnerability Assessment (RVA) 
which includes penetration testing for TSA's Mission Essential and 
High-Value Asset Systems. In 2017, CS&C conducted these assessments 
against the Secure Flight system. The Technology Information 
Modernization (TIM) will be assessed in April 2018 and the 
Transportation Vetting System (TVS) is scheduled to be assessed in 
August 2018.
    Question 5e. Does TSA have specific resource constraints associated 
with delivering on its cybersecurity objectives?
    Answer. Once a solution has been approved to implement on TSE 
equipment, this is an additional 15,000 endpoints that will be on the 
TSA network. Each endpoint requires incident monitoring, log reviews, 
as well as forensics investigation support if an incident does occur. 
On-going Security Authorization and continuous monitoring to ensure 
each TSE is adhering to DHS policies and guidelines, is required for 
the FISMA systems that will be defined through the separations of the 
TSEs boundary. Considering these additional monitoring requirements, 
TSA will need to assess the requirement for additional financial and 
human capital resources, to include possible re-prioritization and/or 
realignment of current resources to address any resource shortfall.
    Question 5f. What assistance from industry does TSA need in meeting 
its cybersecurity objectives?
    Answer. As industry continues to design and develop new aviation 
and screening technologies to meet an evolving threat landscape and TSA 
requirements, companies need to embrace the idea that new systems and 
capabilities must be cyber-ready when presented to TSA for 
consideration.
    Question 6a. TSA's Refresh Plan incorporates outdated data and 
lacks a Classified appendix.
    Can you please update Figure 3 to reflect actual TSA TSE procured 
between August 2015 and August 2017? Please include an update of 
equipment procured August 2017-January 2018.
    Answer.

         FIGURE 3.--TSA TRANSPORTATION SECURITY EQUIPMENT AWARDS
------------------------------------------------------------------------
                                                    Aug 2015-
                                         Aug 2015-   Aug 2017
                                          Aug 2017   (actual/  Sept 2017-
                  TSE                    (includes      no      Feb 2018
                                          options)   options)
 
------------------------------------------------------------------------
Advanced Imaging Technology (AIT)......        161        162          0
Advanced Technology (AT) X-ray.........         70         69         66
Boarding Pass Scanner (BPS)............        250        250        500
Explosives Detection System (EDS)......        115        118         59
Explosives Trace Detector (ETD)........      3,426      1,353          0
Credential Authentication Technology            30         30          0
 (CAT).................................
Computed Tomography (CT)...............          0          0          8
------------------------------------------------------------------------

    Question 6b. Figure 4 depicts projected useful life for deployed 
TSE. For AT systems, can you please provide the initial deployment year 
and number of systems constituting 2170 as of 5/30/2017?
    Answer. Figure 4 provides the initial deployment of Advanced 
Technology (AT) systems from 2008 through May 30, 2017. The total 
number does not represent the exact number of AT systems deployed to 
airports as this list includes 46 systems that were decommissioned, 
four systems in temporary storage, and the remaining in transit or with 
the original equipment manufacturer for repairs/upgrades.

                   FIGURE 4.--DEPLOYMENT OF AT BY YEAR
------------------------------------------------------------------------
               Initial AT Deployment by Year
------------------------------------------------------------------------
2008.......................................................         504
2009.......................................................         407
2010.......................................................          14
2011.......................................................         205
2012.......................................................         434
2013.......................................................          36
2014.......................................................         499
2015.......................................................          53
2016.......................................................          68
2017.......................................................           5
      Total................................................       2,225
------------------------------------------------------------------------

    Question 6c. Figure 5 is current as of August 2017. Can you please 
update as of January 2018?
    Answer.

                    FIGURE 5.--APPROVED PSP AND EBSP PLANNED PROCUREMENTS AS OF FEBRUARY 2018
----------------------------------------------------------------------------------------------------------------
                Transportation Security Equipment                  FOC \1\   FY17 \2\    FY18     FY19     FY20
----------------------------------------------------------------------------------------------------------------
Explosives Detection System (EDS)...............................  .........       106      190       83       73
Explosives Trace Detector (ETD) \3\.............................      5,860         0    1,898      159       10
Advanced Imaging Technology (AIT)...............................        962         1  .......  .......  .......
Advanced Technology (AT)........................................      2,213        66  .......  .......  .......
Bottled Liquid Scanner (BLS)....................................      1,530  ........  .......  .......  .......
Credential Authentication Technology (CAT)......................      1,520        30  .......      294      295
Computed Tomography (CT)........................................  .........     8 \4\   30 \3\  145 \5\      120
Enhanced Metal Detector (EMD)...................................        960  ........  .......  .......  .......
Boarding Pass Scanner (BPS).....................................  .........       500  .......  .......  .......
----------------------------------------------------------------------------------------------------------------
\1\ Full Operational Capability (FOC).
\2\ Quantities provided for fiscal year 2017 are now considered actual TSA TSE procured. Quantities provided for
  fiscal year 2018 and beyond are considered planned procurements.
\3\ Includes both Electronic Baggage Screening Program (EBSP) and Passenger Screening Program (PSP).
\4\ TSA reprogrammed funding for initial CT development activities and the procurement, testing, and deployment
  of 42 checkpoint CT prototypes.
\5\ These are for the Passenger Screening Program.

    Question 6d. What is the anticipated average cost of an Automated 
Security Lane? Figure 6 projects 125 ASLs in fiscal year 2020. Can you 
please inform the committee the basis for this number and the assigned 
security value of ASLs as compared to other TSE? What are the plans for 
deploying ASLs, and of the 2,170 Checkpoints, how many ASLs are planned 
to be deployed? Will TSA or airports be the purchasers and what is the 
site criteria for these deployments?
    Answer.
  <bullet> The anticipated average cost of an Automated Security Lane 
        (ASL) is $280,000 which includes estimated procurement and 
        deployment costs. ASL systems will be procured with a 2-year 
        warranty. Therefore, annual maintenance costs of approximately 
        $25,000 per system will be incurred beginning in fiscal year 
        2020, upon conclusion of initial system warranty.
  <bullet> Below provides TSA's deployment plan through fiscal year 
        2019. Quantities for future years will be determined by the 
        budget process.
Quantities
    Fiscal Year 2016.--2
    Fiscal Year 2017.--84
    Fiscal Year 2018.--114
    Fiscal Year 2019.--0
    Fiscal Year 2020.--200
    Fiscal Year 2021.--200
    Fiscal Year 2022.--200
    Fiscal Year 2023.--200
    Fiscal Year 2024.--200

  <bullet> Security value of ASLs will be determined as requirements 
        are defined, performance data is collected, and an ASL Program 
        of Record (POR) is established.
  <bullet> The ASL systems deployed in fiscal year 2016, fiscal year 
        2017, and fiscal year 2018 represent systems purchased by 
        private entities and deployed under the 2016 Urgent Operational 
        Need by the TSA Innovation Task Force. Those systems to be 
        deployed during fiscal year 2020 and beyond will be systems 
        purchased and deployed under an ASL POR. During fiscal year 
        2018 and fiscal year 2019, TSA will be finalizing ASL 
        requirements, completing documentation to establish the POR, 
        testing systems against established requirements, and holding a 
        Department of Homeland Security Acquisition Decision Event for 
        approval to purchase and deploy qualified systems.
  <bullet> Based on space constraints at checkpoints, up to half of all 
        deployed CT systems could be integrated with an ASL system, 
        which would result in a total of 1,376 ASL systems being 
        deployed to the field. Funding for systems integration work to 
        validate this assumption was provided in the 2018 
        Appropriations Act.
  <bullet> TSA will continue to work with our industry partners to 
        determine whether there is an opportunity to procure ASL 
        systems under the public-private partnerships strategy under 
        the POR. Under the POR it will be incumbent that any 
        partnership includes the procurement of qualified technologies 
        to ensure screening operations are not negatively impacted, 
        coordination with TSA on logistics, and prioritization of 
        technology placement.
  <bullet> Site criteria will not be finalized until requirements are 
        established and ASL performance data is collected.
    Question 6e. Pg. 25 TSA identifies non-prioritized capability gaps. 
Can you please provide for the committee a Classified prioritization 
and fiscal year 2017 and projected fiscal year 2018 funding toward 
achievement/fulfillment?
    Answer. We are in the process of scheduling a Classified briefing 
with the committee to discuss TSA's screening equipment detection 
requirements and capabilities, which are written at the SECRET level.
    Question 7a. One of your key responsibilities as administrator is 
ensuring TSA has the information technology tools it needs to 
accomplish its zero-fail mission. To that end, the IMPACT procurement, 
which will select a contractor to run all of TSA's IT infrastructure, 
is essential to the security of the traveling public. How does the 
IMPACT procurement reflect the latest cybersecurity best practices, 
including requirements of President Trump's recent cybersecurity 
Executive Order?
    Answer. IT Management, Performance and Analysis, and Collaborative 
Technologies (IMPACT) procurement of IT support services for the 
Transportation Security Administration's (TSA) IT environment reflects 
cybersecurity best practices as outlined by the Office of Management 
and Budget (OMB) and the U.S. Department of Homeland Security (DHS) in 
their cybersecurity and information assurance requirements and mandate. 
For example:
  <bullet> the IMPACT Task Order Request for Proposal (TORP) specifies 
        the overarching information assurance/cybersecurity 
        requirements of the solicitation; and
  <bullet> the IMPACT statement of objectives specifies the objectives 
        for the information assurance and cybersecurity support 
        services required of the IMPACT contractor.
    Following the issuance of President Trump's recent cybersecurity 
Executive Order (EO), DHS and TSA seamlessly mapped the requirements of 
the EO and other relevant sources to the IMPACT TORP. TSA determined 
that the existing structure and cybersecurity provisions of the IMPACT 
TORP and its attachments already satisfied these requirements.
    Question 7b. How does this take into account priorities surrounding 
cloud deployment and shared services?
    Answer. IMPACT prioritized cloud deployment and shared services 
throughout its TORP. The IMPACT TORP released in May 2016 identified 
cloud deployment in Objective No. 2: ``Manage and maintain on-going 
relationships with TSA's technology providers for services such as, 
data center, network, anything as a Service (XaaS), application 
development, and cloud services to ensure service availability and 
continuity across the TSA IT enterprise, without a break in service.''
    Cloud deployment was further identified as Priority No. 4: 
``Utilize the cloud to provide on-demand scalability, increased access, 
and higher security for all TSA users thereby delivering information 
more rapidly and enabling more informed decisions and actions. In an 
effort to reduce future recapitalization expenses, TSA's strategic 
plans include migration of infrastructure of some or all services 
covered under IMPACT to a cloud environment.''
    TSA identified it would need support with the following with 
respect to cloud deployment:
    1. Provide enterprise systems management services for all TSA 
        environments (e.g., Production, Development and Test, etc.,) to 
        meet TSA and DHS policies and guidelines, in close coordination 
        with the data center, XaaS, and cloud services providers.
    2. Provide migration-related operations and maintenance support for 
        the movement of systems to other platforms, data centers, and 
        cloud services.
    The IMPACT TORP also provided notice that TSA's strategic plans 
included the migration of e-mail services infrastructure to a 
commercial cloud.
    TSA already utilizes several shared services, including Time and 
Attendance from U.S. Department of Agriculture; Financials from the 
U.S. Coast Guard; and Workplace as a Service (WPaaS) from DHS. When 
replacing an old capability or obtaining a new one, TSA determines the 
feasibility of adopting an existing shared service/system. The IMPACT 
contractor's only responsibility for access to these systems is the TSA 
infrastructure specified for support under the IMPACT solicitation, 
thus shared services are not mentioned under IMPACT.
    Below are some of the policies, directives, SOPs, and standards TSA 
included in the Virtual Reading Room (VRR), to which all IMPACT 
Offerors were provided access.
  <bullet> Federal Information Security Management Act (FISMA)
  <bullet> DHS Policy Directive 034-03--Continuous Improvement of DHS 
        Cyber Defenses
  <bullet> DHS USM Memo--Strengthening DHS Cyber Defenses
  <bullet> DHS Policy Directive 4300A--DHS Sensitive Systems
  <bullet> TSA Management Directive (MD) 1400.3--Information Technology 
        Security
  <bullet> TSA MD 1400.3 Attachment 1--TSA Information Assurance 
        Handbook
  <bullet> TSA Standard Operating Procedure (SOP) 1444--Information 
        Security Vulnerability Management
  <bullet> TSA SOP 1426--Security Event Testing
  <bullet> TSA SOP 1410--On-going Authorization (On-going assessments 
        of systems)
  <bullet> TSA SOP 1402--Security Authorization (Tailoring security 
        authorization process outlined in NIST SP 800-37)
  <bullet> TSA SOP 1444--Information Security Vulnerability Management
  <bullet> TSA SOP 1404--Incident Response for Computer Security 
        Incidents
  <bullet> TSA SOP 1431--Automated IT Security Scanning
  <bullet> TSA Technical Standard (TS) TS-003--Wi-Fi (802.11)
  <bullet> TSA TS-006--Network Intrusion Detection and Prevention 
        Systems
  <bullet> TSA TS-007--Host Intrusion Detection and Prevention Systems
  <bullet> TSA TS-012--Port Security
  <bullet> TSA TS-018--Wide Area Network (WAN) Security
  <bullet> TSA TS-010--Network Interconnections
  <bullet> TSA TS-072--Cloud Computing and Virtualization
  <bullet> TSA TS-016--Remote Access
  <bullet> TSA TS-028--Web Applications
  <bullet> TSA TS-037--Server Security
  <bullet> TSA TS-041--Switch Security
  <bullet> TSA TS-015--Network Logical Access Control
  <bullet> TSA TS-025--Virtual Private Networks
  <bullet> TSA TS-022--Public Key Infrastructure (PKI)
  <bullet> NIST Special Publication (SP) 800-137--Information Security 
        Continuous Monitoring for Federal Information Systems and 
        Organizations
  <bullet> NIST SP 800-39--Managing Information Security Risk
  <bullet> NIST SP 800-37--Guide for Applying the Risk Management 
        Framework to Federal Information Systems
  <bullet> NIST SP 800-53--Security and Privacy Controls for Federal 
        Information Systems and Organizations
  <bullet> NIST SP 800-18--Guide for Developing Security Plans for 
        Federal Information Systems
  <bullet> OMB Memorandum M-14-03--Enhancing the Security of Federal 
        Information Systems
  <bullet> Federal Information Processing Standards (FIPS) Publication 
        (PUB) 199--Standards for Security Categorization of Federal 
        Information and Information Systems
  <bullet> FIPS PUB 200--Minimum Security Requirements for Federal 
        Information and Information Systems
     Question From Chairman Michael T. McCaul for David P. Pekoske
    Question. Why did TSA's Technology Investment Plan Biannual Refresh 
pay little attention to the security of Air Cargo, given the current 
threat landscape and recent plots against aviation security?
    Answer. The Strategic Five-Year Technology Investment Plan Biennial 
Refresh intends to provide an update to the original Strategic Five-
Year Technology Investment Plan and discusses TSA's acquisition 
programs and technology initiatives. TSA's regulatory role in the air 
cargo environment is supplemented by outreach and industry/association 
engagement to ensure carriers have the capability to properly screen 
air cargo before it is loaded onto an aircraft. TSA does not currently 
procure or invest in supplying equipment to carriers under an air cargo 
program and, at this time, there is no plan to establish a program. The 
carriers themselves own the technology systems or contract with third 
parties to ensure the strict security requirements for air cargo are 
implemented.
    However, the agency's goal is to stimulate and support the air 
cargo security technology marketplace. TSA has the ability to 
continuously receive vendor requests for qualification of prospective 
technologies, works collaboratively with vendors to refine the 
technologies they propose, and publishes the TSA Air Cargo Screening 
Technology List (ACSTL) on our website. TSA also works with industry 
annually to develop needs and capability gaps that are submitted to DHS 
S&T, which form the basis for S&T's air cargo R&D programs.
    TSA is also partnering with the Air Cargo Associations and canine 
companies to initiate a Third-Party Canine Cargo program. This new 
program will provide the capability for private industry to screen 
cargo utilizing private canine companies certified to TSA standards.
 Questions From Ranking Member Bennie G. Thompson for David P. Pekoske
    Question 1a. Last spring, we saw the emergence of a serious new 
threat to the aviation system relating to personal electronic devices 
(PEDs). The threat had a signifcant, rippling effect on the 
international aviation sytem, with last-point-of-departure airports 
required to take drastic steps to increase security and passengers here 
in the United States now required to take PEDs out of their carry-on 
bags. The latest intelligence indicates that we are in a very dynamic 
and evolving threat landscape that could have significant implications 
on aviation and the international economy. Will the investments 
outlined in the Refresh Plan for transportation security equipment keep 
pace with the evolving threats to aviation?
    Cen you describe in detail how the TSA's Refresh Plan will 
accelerate significant advancements in security technology capabilities 
and deployment of these systems at the Nation's checkpoints and checked 
baggage sytems?
    Question 1b. Can you describe how the Refresh Plan fosters a robust 
domestic security manufacturing base and enhances competition to drive 
innovation in aviation security?
    Answer. Response was not received at the time of publication.
    Question 2. Around 50% of all passenger airline flights carry cargo 
in the bay of the aircraft, yet the Refresh Plan makes no reference to 
cargo security. This omission is of great concern. We understand that 
while TSA delegates responsibility for cargo screening to freight 
forwarders and therefore does not itself purchase cargo screening 
equipment, the cargo security threat is recognized and there is work 
being done within DHS S&T to advance screening technology in this area. 
Does TSA accept the findings of such organizations as the GAO and CRS 
and view air cargo as a serious security concern and, if so, what are 
TSA's specific plans on incorporating advanced, non-intrusive cargo 
screening technologies into TSA's R&D and materiel acquisition 
planning?
    Are there opportunities to consolidate Air Cargo requirements with 
the requirements of other agencies, such as the CBP Non-Intrusive 
Inspection system?
    Answer. Response was not received at the time of publication.
    Question 3. The Refresh plan is nearly 50 pages long. Throughout 
the entire Refresh Plan, there is only one paragraph dedicated to small 
businesses. That is not good enough. In greater detail than the portion 
in the Refresh Plan, will you describe how TSA is planning to better 
integrate small businesses into the security technology development 
pipeline?
    Answer. TSA has an excellent record of working with small 
businesses, and in fiscal year 2017 exceeded its overall small business 
goal, awarding 24.8 percent of its contracts to small businesses.

------------------------------------------------------------------------
                                                             Achievement
                            Goal                              (Percent)
------------------------------------------------------------------------
Small Business--24 percent.................................         24.8
Small Disadvantaged--5 percent.............................         12.3
Woman-Owned SB--5 percent..................................          9.0
Service-Disabled Veteran-Owned SB--3 percent...............          3.5
Hub Zone--3 percent........................................         2.92
------------------------------------------------------------------------

    In addition, in fiscal year 2017, TSA awarded contracts to four 
Computed Tomography (CT) contractors for CT prototype units. This 
contracting opportunity was open to all of industry. One of the four 
contractors that was awarded a CT prototype contract is a small 
business, Integrated Defense and Security Solutions (IDSS) Holdings, 
Inc. In fiscal year 2018, TSA has conducted several industry 
engagements related to CT. These industry engagements include an 
informational conference that was held on November 8, 2017, an industry 
day that was held on November 17, 2017, and a notice that was posted on 
the Federal Business Opportunities (FBO) website inviting vendors to 
submit their Advanced Technology (AT)/CT system for potential 
qualification.
    Further, the Office of Requirements and Capabilities Analysis 
(ORCA) is working in partnership with the S&T Silicon Valley Innovation 
Program (SVIP) on technical calls to start-up companies with solutions 
to transportation security issues. DHS established the SVIP to keep 
pace with the innovation community and tackle the hardest problems 
faced by DHS's operational missions. The SVIP is expanding DHS's reach 
to find new technologies that strengthen National security with the 
goal of reshaping how Government, entrepreneurs, and industry work 
together to find cutting-edge solutions. DHS is reaching out to Silicon 
Valley and all of the innovation communities across the Nation to 
harness the commercial R&D ecosystem for Government applications, co-
invest in ideas, and accelerate transition-to-market.
    Recognizing the value that collaboration, of various perspectives, 
and early/often engagement brings, TSA does a mix of large and small 
engagement events across the enterprise. TSA regularly posts Requests 
for Proposals, Requests for Information, Industry Day Announcements, 
Pre-Proposal Conferences, as well as Broad Agency Announcements (BAAs) 
on the Federal Business Opportunities website for known and future 
requirements. There is currently an open BAA for Transportation 
Security Innovative Concepts (TSIC) that all vendors, small and large, 
are available to submit ideas to. TSA seeks research across broad 
strategic areas which offer potential for advancement and improvement 
of TSA security operations, technologies, processes, human-factors, and 
capabilities. TSA is specifically interested in research that will 
provide for near-term improvement of current security operations and 
capabilities. TSA reviews all submittals against this BAA, and may or 
may not fund depending on various factors.
    Small businesses may have concerns that, due to the cost burdens of 
sending employees to the demonstration site or developing interim 
training, they may not be able to participate in demonstrations. ITF 
BAAs provide the option for small businesses to receive incidental 
funding to support demonstration activities on a case-by-case basis. Of 
the 96 vendors who submitted to the most recent ITF BAA, IDEA, 40 self-
identified as a small business. Additionally, 61 percent of respondents 
had never contracted with TSA before, and 33 percent had never 
contracted with the Federal Government. ITF is also working to reduce 
the level of background information on specific TSA processes and 
activities necessary for a vendor to successfully respond to solution 
solicitations.
    The unsolicited proposal is a valuable means by which unique or 
novel ideas, concepts, methods, or approaches, which have been 
developed outside the Government, can be made available to the TSA for 
use in the accomplishment of its mission. The unsolicited proposal when 
received would be considered against Federal Acquisition Regulation 
(FAR) criteria and evaluated accordingly. TSA has created an 
Unsolicited Proposal Manual available at www.tsa.gov that can help 
small businesses submit ideas to TSA.
    Last, TSA has a robust industry engagement program. An experienced, 
senior management official in the Office of Contracting and Procurement 
is the TSA Industry Liaison and is an excellent source of information 
for small businesses and other entities looking to engage TSA. As part 
of the DHS-wide industry liaison program to establish strategic 
relationships with suppliers and stakeholders, serves as an information 
provider for firms seeking to do business with TSA and connects firms 
with program offices in support of our mission. There is also a 
Director, Small Business Programs that helps acquisition officials 
understand various small business programs, conduct market research, 
and make decisions that affect small business. Both the Industry 
Liaison and Small Business Advocate work directly with numerous 
Industry Councils, individual firms, TSA program offices, and DHS to 
increase transparency and knowledge of business opportunities and 
processes.
    Question 4a. With regard to Automated Screening Lanes (ASLs), the 
strategic plan refresh indicates that planned procurements are not 
anticipated until fiscal year 2020. Does TSA intend to work with 
industry to accommodate possible future non-Federal investment in ASL, 
potentially from airlines and airports, in the interim, as was done a 
few years ago to address concerns over screening checkpoint delays?
    Question 4b. Are there any particular challenges or concerns 
regarding the use of non-Federal investments to fund screening 
checkpoint technologies and infrastructure?
    Answer. The Transportation Security Administration (TSA) continues 
to work with our industry partners to demonstrate emerging technology 
and explore public-private partnerships. At this time TSA has completed 
the final deployments authorized by DHS under the approved Urgent 
Operational Need and is transitioning to the Office of Acquisition 
Program Management to ensure the sustainment of current capabilities 
and initiate a formal program.
    TSA has not experienced any particular challenges with the use of 
non-Federal funding, but long-term it will be incumbent that any 
partnership includes the procurement of qualified technologies to 
ensure screening operations are not negatively impacted, as well as on-
going coordination with TSA on logistics and prioritization of 
technology placement. There is also the question of maintenance and 
future upgrades; if the non-Federal investment only covers the initial 
capital expenditure, then TSA will need to receive Federal funding for 
equipment maintenance, upon warranty expiration, and any required 
upgrades of these systems.
    Question 5a. On January 15, the DHS Office of Inspector General 
issued a report (OIG-18-35) which found that ``TSA's handling of the 
Transportation Security Executive Service Employee's disciplinary 
matter uncovered significant deviations from policy and standard 
practice indicating that the TSES employee received unusually favorable 
treatment.'' The Office of Inspector General recommended that TSA 
``address the irregularities . . . advise TSA employees to comply with 
existing policies.'' Have you had a chance to review the report?
    Question 5b. Have you or do you have plans to advise employees to 
comply with existing policies?
    Answer. I have read the report. I am committed to ensuring TSA's 
core values, of which integrity is part, and all TSA policies are 
adhered to throughout all levels of the organization.
    TSA policy is reviewed and updated on an on-going basis. Upon 
review of the OIG reports, our processes for disciplinary matters 
involving members of the Transportation Security Executive Service 
(TSES) have been revised with great emphasis on oversight and 
collaboration for decision making. Specifically, effective March 13, 
2018, any proposed settlement agreement involving any member of the 
TSES or Executive-level positions must be coordinated with the TSA 
Deputy Administrator (DA), the Chiefs of Operations and Mission 
Support, and the Assistant Administrators of Security Operations, and 
Law Enforcement/Federal Air Marshal Service, before being finalized.
    In addition, as mentioned in the OIG report, during the time of the 
OIG investigation, TSA was considering modifying the structure of the 
Office of Professional Responsibility (OPR). TSA has since done so, 
ensuring that an employee's supervisory chain is involved in the 
disciplinary decision-making process regarding that employee. To 
facilitate and ensure compliance with these policy changes, training is 
being planned for deciding officials regarding their roles and 
responsibilities. Additionally, an Executive Discipline Review Board 
administered by OPR will serve as the proposing official for employees 
in the Transportation Security Executive Service (TSES).
    Other policy changes regarding the disciplinary process are also 
being considered that will provide clarity for managers. For example, a 
project team consisting of senior executives and subject-matter 
experts, recently completed a lengthy and in-depth review of our Table 
of Offenses and Penalties for Appropriate Discipline for Common 
Offenses, which is the document that provides guidelines to managers 
and human resources staff on penalties for employee misconduct. The 
document has been revised and, once it is formally approved, we will 
plan a targeted communications campaign to supervisors and non-
supervisors, notifying them of the changes, the intended use of the 
document, and the necessity for all employees to read TSA's policies on 
Employee Responsibilities and Code of Conduct. All employees are 
required to review the conduct policy on an annual basis. Additionally, 
TSA's Office of Human Capital (OHC) has been conducting Employee 
Relations ``boot camps'' at airports around the country to provide 
local staff with the knowledge and skills necessary to address and 
resolve employee disciplinary issues at the lowest level possible. OHC 
has also been conducting similar training for offices at TSA 
Headquarters.
    Question 6a. I understand that the American Federation of 
Government Employees (AFGE), which represents front-line TSOs, has 
reached out to you on issues of importance to the workforce. Are you 
planning to work with labor representatives?
    Question 6b. I understand that you have not yet met face-to-face 
with AFGE's national representation. Are you going to meet with AFGE?
    Answer. As TSA is an excepted service agency with delegated 
authority to establish the employment conditions of the screening 
workforce, collective bargaining was established under the first 
Determination issued in 2011. The Determination created the foundation 
of collective bargaining within TSA and limited the scope of issues 
that could be negotiated. Although the Determination has been revised 
over the years (last modified in 2016), the provisions relating to 
negotiable items has not changed.
    TSA continues to engage AFGE on all matters covered by the 
collective bargaining agreement, and works to resolve any disputes 
associated with the Determination and the collective bargaining 
agreement. I held an introductory call with J. David Cox on August 21, 
2017, and also met with Mr. Cox on February 23, 2018.
    Question 7a. The August 2016 Determination on Collective Bargaining 
signed by former TSA Administrator Peter Neffenger included section 
(D), requiring an independent review of the Unitary Dispute Resolution 
System (UDRS), which is a grievance procedure. Section (D) states as 
follows: ``Within 12 months of the date of this Determination, TSA will 
identify an expert, independent, third party to evaluate the entire 
UDRS. The expert, independent third party will evaluate the UDRS 
processes consistent with this Determination. The exclusive 
representative will participate in this evaluation. This third party 
will produce a report for TSA that will be shared with the AFGE and the 
workforce.''
    It is my understanding that instead of following an open, 
competitive process allowing human resource specialists to bid on the 
contract, TSA awarded the Chickasaw Nation a $500,000 no-bid contract 
to evaluate the UDRS in September 27, 2017. Did TSA use a non-
competitive process to contract for the UDRS evaluation? If so, why?
    Answer. Yes. TSA sole sourced to Chickasaw as a means of developing 
them within the 8(a) program and to meet TSA's small business goals 
within the 8(a) small business subset category.
    This method of procurement was determined by the Contracting 
Officer as part of a larger Agency procurement strategy to meet the 
requirements of Federal Acquisitions Regulation, part 19.800 as 
follows:

``19.800 General.
``(a) Section 8(a) of the Small Business Act (15 U.S.C. 637(a)) 
established a program that authorizes the Small Business Administration 
(SBA) to enter into all types of contracts with other agencies and 
award subcontracts for performing those contracts to firms eligible for 
program participation. This program is the `8(a) Business Development 
Program,' commonly referred to as the `8(a) program.' A small business 
that is accepted into the 8(a) program is known as a `participant.' 
SBA's subcontractors are referred to as `8(a) contractors.' As used in 
this subpart, an 8(a) contractor is an 8(a) participant that is 
currently performing on a Federal contract or order that was set aside 
for 8(a) participants.
``(b) Contracts may be awarded to the SBA for performance by eligible 
8(a) participants on either a sole source or competitive basis.
``(c) Acting under the authority of the program, the SBA certifies to 
an agency that SBA is competent and responsible to perform a specific 
contract. The contracting officer has the discretion to award the 
contract to the SBA based upon mutually agreeable terms and conditions.
``(d) The contracting officer shall comply with 19.203 before deciding 
to offer an acquisition to a small business concern under the 8(a) 
program. For acquisitions above the simplified acquisition threshold, 
the contracting officer shall consider 8(a) set-asides or sole source 
awards before considering small business set-asides. (Emphasis added.)
``(e) When SBA has delegated its 8(a) program contract execution 
authority to an agency, the contracting officer must refer to its 
agency supplement or other policy directives for appropriate 
guidance.''

    Pursuant to this requirement, TSA sole sourced to Chickasaw as a 
means of developing them within the 8(a) program and to meet our TSA 
small business goals within the 8(a) small business subset category.
    Question 7b. Has TSA previously contracted with the Chickasaw 
Nation to evaluate a grievance procedure?
    Answer. No. TSA's National Resolution Center has not previously 
contracted with the Chickasaw Nation to evaluate a grievance procedure.
    Question 7c. Did TSA work with AFGE or acknowledge their efforts to 
engage in the selection of ``an expert, independent, third party'' to 
evaluation the UDRS?
    Answer. No, TSA did not work with AFGE regarding this selection 
process. There is no requirement in the 2016 Administrator's 
Determination to work with AFGE in the selection of ``an expert, 
independent, third party.'' The Determination requires that ``TSA will 
identify an expert independent third party to evaluate the entire 
UDRS.'' The Determination further states that ``The exclusive 
representative will participate in this evaluation.'' Participation in 
the evaluation is a separate activity from the ``identification'' of 
the third party reviewer.
    The selection of ``an expert, independent, third party'' is a 
procurement effort. The Contracting Officer determined the procurement 
strategy for this solicitation and deemed this would meet the 
requirements of a small business set-aside, meeting TSA's Small 
Business Administration (SBA) goals. TSA did not work with AFGE during 
the procurement process, which requires the government to control 
information that is procurement sensitive.
    On November 13, 2017, AFGE engaged with TSA by email to inquire 
about the status of the independent review of the UDRS. The TSA 
acknowledged AFGE's inquiry on the same day and referred the question 
to the National Resolution Center (NRC). The NRC responded on November 
15, 2017 to AFGE's email, advising AFGE that the NRC anticipated 
scheduling a meeting with AFGE in early 2018, upon commencement of the 
UDRS evaluation by Chickasaw Nation Industries.
    Question 7d. Could negotiations with the union on a grievance 
procedure eliminate the need for an expert, third-party evaluation and 
save the taxpayers hundreds of thousands of dollars?
    Answer. It is unlikely that a negotiated grievance procedure would 
save money as there would be significant costs stemming from: (1) The 
negotiations, (2) the resolution process for any terms not agreed upon 
in the negotiations, and (3) the resulting grievance processes. These 
costs would include increased official time, travel expenses, and 
litigation costs. Many of the potential costs would be on-going and 
related to payroll, rather than a one-time contract expenditure. 
Moreover, an independent evaluation may lead to long-term cost savings 
because the findings may highlight opportunities to increase efficiency 
and effectiveness of the UDRS.
    TSA's labor framework, including the grievance process, is intended 
to preserve TSA's flexibility needed to achieve its critical security 
mission in the midst of emerging threats. Consistent with the 
Determination, the current grievance process incorporated input from 
the union. The process also includes expedited arbitration of 
disciplinary actions and other covered workplace disputes, as agreed 
upon between TSA and AFGE in a 2012 Memorandum of Agreement.
    Question 8a. Please provide the following information:
    The number of full-time Equivalent Transportation Security Officers 
(Transportation Security Officers, Lead Transportation Security 
Officers, Behavioral Detection Officers, Equipment Maintenance 
Technicians Officers, and Training Instructors), employed by TSA during 
each calendar year from 2005-2017.
    Answer. See Table 1.
    Question 8b. The number of part-time employees (Transportation 
Security Officers, Lead Transportation Security Officers, Behavioral 
Detection Officers, Equipment Maintenance Technicians Officers, and 
Training Instructors) employed by TSA during each calendar from 2005-
2017.
    Answer. See Table 2.
    Question 8c. The number of full-time workers and part-time workers 
employed by TSA to perform screening, behavioral detection, bomb 
appraisal, equipment maintenance technician, and training instructor 
duties during each calendar year from 2005-2017.
    Answer. See Table 3.
    Question 8d. The number of employees as set forth in paragraphs (1) 
and (2) hired by TSA during each calendar year from 2005-2017.
    Answer. See Table 4.
    Question 8e. The number of employees as set forth in paragraphs (1) 
and (2) separated from TSA during each calendar year from 2005-2017.
    Answer. See Table 5.
    Question 8f. The annual attrition rates from 2012-2017 for MCO 
(Orlando International), TPA (Tampa) and MIA (Miami) airports.
    Answer. See Table 6.

                                                                 TABLE 1.--FT HEADCOUNT
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                       2005     2006     2007     2008     2009     2010     2011     2012     2013     2014     2015     2016     2017
--------------------------------------------------------------------------------------------------------------------------------------------------------
BDO................................  .......      137      756    2,388    3,005    2,832    2,902    2,986    2,889    2,464    2,174    1,936
EMT................................  .......  .......  .......  .......        4        5        5        5        7        7        6        6        5
LTSO...............................    5,482    5,560    5,622    5,547    5,689    5,811    5,910    5,829    5,426    5,158    5,045    5,108    6,274
STI................................  .......  .......  .......      465      492      577      562      570      628      601      562      548      663
TSO................................   29,451   26,720   26,672   25,318   22,844   22,979   22,711   23,195   22,635   22,429   22,765   25,155   25,426
                                    --------------------------------------------------------------------------------------------------------------------
      Grand Total..................   34,933   32,417   33,050   33,718   32,034   32,204   32,090   32,585   31,585   30,659   30,552   32,753   32,368
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                                                 TABLE 2.--PT HEADCOUNT
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                       2005     2006     2007     2008     2009     2010     2011     2012     2013     2014     2015     2016     2017
--------------------------------------------------------------------------------------------------------------------------------------------------------
BDO................................  .......        2        8       16       35        8       14       34       16       22       12       12  .......
LTSO...............................      135      133      179      172      205      186      209      200      137      132      154      176      145
STI................................  .......  .......  .......        6        9        7        5        3        5        7        3        4        3
TSO................................    5,973    9,740   10,851   12,036   10,743   11,652   14,262   13,180   11,467    9,888    9,569    9,513    8,917
                                    --------------------------------------------------------------------------------------------------------------------
      Grand Total..................    6,108    9,875   11,038   12,230   10,992   11,853   14,490   13,417   11,625   10,049    9,738    9,705    9,065
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                                                   TABLE 3.--BAO COUNT
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                       2005     2006     2007     2008     2009     2010     2011     2012     2013     2014     2015     2016     2017
--------------------------------------------------------------------------------------------------------------------------------------------------------
BAO................................  .......       17      100      263      288      379      407      427      392      398      398      396      399
      FT...........................  .......       17      100      263      288      379      407      427      392      398      398      396      399
BDO................................  .......      139      764    2,404    3,040    2,840    2,916    3,020    2,905    2,486    2,186    1,948  .......
      FT...........................  .......      137      756    2,388    3,005    2,832    2,902    2,986    2,889    2,464    2,174    1,936  .......
      PT...........................  .......        2        8       16       35        8       14       34       16       22       12       12  .......
EMT................................  .......  .......  .......  .......        4        5        5        5        7        7        6        6        5
      FT...........................  .......  .......  .......  .......        4        5        5        5        7        7        6        6        5
LTSO...............................    5,617    5,693    5,801    5,719    5,894    5,997    6,119    6,029    5,563    5,290    5,199    5,284    6,419
      FT...........................    5,482    5,560    5,622    5,547    5,689    5,811    5,910    5,829    5,426    5,158    5,045    5,108    6,274
      PT...........................      135      133      179      172      205      186      209      200      137      132      154      176      145
STI................................  .......  .......  .......      471      501      584      567      573      633      608      565      552      666
      FT...........................  .......  .......  .......      465      492      577      562      570      628      601      562      548      663
      PT...........................  .......  .......  .......        6        9        7        5        3        5        7        3        4        3
TSO................................   35,424   36,460   37,523   37,354   33,587   34,631   36,973   36,375   34,102   32,317   32,334   34,668   34,343
      FT...........................   29,451   26,720   26,672   25,318   22,844   22,979   22,711   23,195   22,635   22,429   22,765   25,155   25,426
      PT...........................    5,973    9,740   10,851   12,036   10,743   11,652   14,262   13,180   11,467    9,888    9,569    9,513    8,917
                                    --------------------------------------------------------------------------------------------------------------------
      Grand Total..................   41,041   42,309   44,188   46,211   43,314   44,436   46,987   46,429   43,602   41,106   40,688   42,854   41,832
--------------------------------------------------------------------------------------------------------------------------------------------------------
Note: Duties based on position title.


                                                                   TABLE 4.--Q4--HIRES
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                       2005     2006     2007     2008     2009     2010     2011     2012     2013     2014     2015     2016     2017
--------------------------------------------------------------------------------------------------------------------------------------------------------
BDO................................  .......  .......  .......        1  .......  .......  .......  .......  .......        1        2        2  .......
LTSO...............................  .......        5        4        7        2        3  .......        2        4        2        4        5        1
STI................................  .......  .......  .......  .......  .......  .......  .......  .......        1  .......  .......        1  .......
TSO................................    1,406   10,771   12,775   11,278    2,608    5,679    8,069    6,357    4,847    4,854    7,276   10,761    7,938
                                    --------------------------------------------------------------------------------------------------------------------
      Grand Total..................    1,406   10,776   12,779   11,286    2,610    5,682    8,069    6,359    4,852    4,857    7,282   10,769    7,939
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                                                TABLE 5.--Q5--SEPARATIONS
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                       2005     2006     2007     2008     2009     2010     2011     2012     2013     2014     2015     2016     2017
--------------------------------------------------------------------------------------------------------------------------------------------------------
BDO................................  .......        1       17       48       69      126      132      141      190      287      238      217      185
EMT................................  .......  .......  .......  .......  .......  .......  .......  .......  .......  .......  .......  .......        1
LTSO...............................      213      425      429      306      198      257      286      441      420      471      436      427      456
STI................................  .......  .......  .......        6        9        9       21       23       28       41       43       31       34
TSO................................    3,612    8,044    8,834    7,126    3,708    3,376    4,003    5,509    5,779    5,775    5,565    6,455    6,416
                                    --------------------------------------------------------------------------------------------------------------------
      Grand Total..................    3,825    8,470    9,280    7,486    3,984    3,768    4,442    6,114    6,417    6,574    6,282    7,130    7,092
--------------------------------------------------------------------------------------------------------------------------------------------------------
Note.--In fiscal year 2017, TSA moved away from a ``stand-alone'' Behavior Detection Officer (BDO) position. TSA has since integrated the skillset into
  the screening workforce.


                                                                         TABLE 6
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                  2012 TOTAL  2013 TOTAL  2014 TOTAL  2015 TOTAL  2016 TOTAL  2017 TOTAL
                Airport Code                             Airport Name              Attrition   Attrition   Attrition   Attrition   Attrition   Attrition
                                                                                     Rate        Rate        Rate        Rate        Rate        Rate
--------------------------------------------------------------------------------------------------------------------------------------------------------
MCO........................................  Orlando International Airport......        6.7%        9.1%       11.6%       13.5%       13.7%       11.7%
MIA........................................  Miami International Airport........        7.3%        7.4%       11.2%        9.5%        8.3%        8.1%
TPA........................................  Tampa International Airport........        9.0%       11.6%        8.3%       12.6%       11.6%       13.0%
--------------------------------------------------------------------------------------------------------------------------------------------------------

    Question 8g. The current distribution by pay band for all employees 
described in paragraphs (1) and (2) working at the airports listed in 
paragraph (9).
    Answer.

                      Q6--COUNTS FOR MCO, MIA, TPA
------------------------------------------------------------------------
                                                    Airport
                                     -----------------------------------
                                                                  Grand
                                        MCO      MIA      TPA     Total
------------------------------------------------------------------------
EMT.................................  .......  .......  .......  .......
      F Band........................  .......        5  .......        5
LTSO................................      144      199       85      428
      F Band........................      144      199       85      428
STI.................................       13       13        9       35
      F Band........................       10        9        7       26
      G Band........................        3        4        2        9
TSO.................................      782    1,041      460    2,283
      D Band........................      106      126       50      282
      E Band........................      666      900      403    1,969
------------------------------------------------------------------------

    Question 8h. The number of full-time workers and part-time workers 
employed by screening companies for each airport under the Screening 
Partnership Program during each calendar year from 2005-2017.
    Question 8i. The attrition rates during each calendar year from 
2005-2017 by airports that participate in the Screening Partnership 
Program by full-time and part-time workers.
    Answer. The following table provides the attrition rate and average 
annual headcount for calendar years 2016 and 2017 at Screening 
Partnership Program (SPP) airports. TSA did not track vendor attrition 
prior to this time frame. Additionally, TSA does not collect the 
contractor full-time/part-time ratio data on performance-based 
contracts, so that requested data is not available.

                                     SPP AIRPORT CONTRACTOR ATTRITION RATES
----------------------------------------------------------------------------------------------------------------
                                                                                   CY '16                CY '17
                                                                        CY '16      Ave       CY '17      Ave
                      CAT                         Region    Airport   Attrition   Monthly   Attrition   Monthly
                                                                      (Percent)  Headcount  (Percent)  Headcount
----------------------------------------------------------------------------------------------------------------
X.............................................          6        SFO         16      1,208         21      1,192
I.............................................          3        MCI         32        368         32        383
II............................................          2        EYW         58         33         43         30
II............................................          5        JAC         35         41         18         51
II............................................          3        FSD         63         45         70         51
IV............................................          4        ROW          0          7         13          8
IV............................................          5        HVR          0          5         97          6
IV............................................          5        OLF          0          5         50          4
IV............................................          5        GGW         78          6         76          7
IV............................................          5        GDV  0 percent          5         14          7
                                                                                              percent
IV............................................          5        SDY          0          4         11          9
I.............................................          1        ROC         33        131         31        137
IV............................................          4        TUP          0          8         26          8
III...........................................          6        STS         66         15         16         19
II............................................          5        BZN         39         82         54         63
III...........................................          5        FCA         46         39         40         40
IV............................................          5        WYS          0          0          0          0
II............................................          2        SFB         42        120         45        113
II............................................          2        SRQ         58         85         54         80
III...........................................          1        PSM         39         23         26         23
II............................................          2       PGD*         24         54         55         52
----------------------------------------------------------------------------------------------------------------
* Data for PGD in 2016 starts on June 1, 2016.

                                            [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
